<html>
<title> - REAUTHORIZATION OF THE OFFICE OF EDUCATION RESEARCH AND IMPROVEMENT</title>
<body><pre>[Senate Hearing 107-533]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-533

  REAUTHORIZATION OF THE OFFICE OF EDUCATION RESEARCH AND IMPROVEMENT 
                                 (OERI)

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON



  EXAMINING PROPOSED LEGISLATION AUTHORIZING FUNDS FOR THE OFFICE OF 
 EDUCATION RESEARCH AND IMPROVEMENT, DEPARTMENT OF EDUCATION, FOCUSING 
 ON ORGANIZATIONAL STRUCTURE, BUDGET, AND TECHNICAL ASSISTANCE SYSTEMS

                               __________

                             JUNE 25, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


80-479              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                 ______

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JUNE 25, 2002

                                                                   Page
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     1
Jeffords, Hon. James M., a U.S. Senator from the State of 
  Vermont, opening statement.....................................     3
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................    12
    Prepared statement...........................................    12
Letter to Senator Enzi from Judy Catchpole.......................    13
Whitehurst, Russ, Assistant Secretary for Educational Research 
  and Improvement, Department of Education, prepared statement...    18
Nettles, Michael, Vice-Chair, National Assistant Governing Board; 
  LaMar Miller, Director, The Comprehensive Centers; and Faye 
  Taylor, Commissioner of Education, Tennessee Department of 
  Education
    Prepared statements of:
        Michael Nettles..........................................    27
        LaMar Miller.............................................    35
        Faye Taylor..............................................    42

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Press release of Senator Jack Reed...........................    46

                                 (iii)

  

 
  REAUTHORIZATION OF THE OFFICE OF EDUCATION RESEARCH AND IMPROVEMENT

                              ----------                              


                         TUESDAY, JUNE 25, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy [chairman of the committee] presiding.
    Present: Senators Kennedy, Jeffords, Reed, and Clinton.

                  Opening Statement of Senator Kennedy

    The Chairman. We will come to order. We will be joined in 
just a few moments by our Republican colleagues and other 
Democrats. We have the defense authorization, so there is a lot 
going on and we would like to get started with our very 
important hearing today.
    Today's hearing will focus on the important role of 
research in improving the quality of education in increasing 
educational opportunities for all Americans. I want to thank 
Assistant Secretary Whitehurst for joining us today and for all 
the assistance he has offered this committee as we begin the 
task of reauthorizing the Office of Educational Research and 
Improvement.
    The cornerstone of the new ESEA legislation is that we must 
support proven programs and sound science when it comes to the 
education of children. The Federal Office of Research and 
Improvement should be first on the rolodex and the first click 
of the mouse for every teacher and educator in America as the 
place to learn what works for our children and what does not, 
and that is our challenge as we reauthorize OERI--to make it an 
invaluable resource for quality education in America.
    And the need for quality research extends far beyond the K-
12 arena. In the 21st Century learning will indeed continue to 
be a lifelong process, so we need to invest in research 
exploring all areas of learning from early childhood to adult 
learners. We need to understand the practices and structures 
that promote improved teaching and learning. We also need to 
examine the policies--local, State and Federal--that expand or 
limit access to educational opportunity for people of all ages.
    In order to ensure that research and national assessments 
are fair, equitable and nonbiased, it is critical that the 
National Assessment Governing Board and the National Commission 
on Statistics maintain their autonomy.
    Today's hearing will allow us to hear from experts in the 
field in each of these areas and I appreciate the time of our 
witnesses to join us and help us understand these issues 
better. Of course, research is only useful if we have the 
resources to implement it. We cannot reform and strengthen our 
schools on a tin cup budget. While the president's budget has a 
modest increase for research and assessment, it actually 
decreases funding for the reforms in the No Child Left Behind 
Law. That means less money for quality teachers, for smaller 
class size, for after-school programs, and for college aid.
    Strong schools are every bit as important to our Nation's 
future as a strong defense. We must do better. I look forward 
to doing more for education research but it must go hand in 
hand with help for our Nation's schools to meet the basic 
educational needs of students.
    I just want to add a very brief word. I think this 
responsibility is of enormous importance. When you look over 
the range of different requirements that we have in the No 
Child Left Behind and particularly when we are talking about 
scientifically-based research programs that we insist on, we 
want to make sure there are going to be all kinds of comments 
about what is research-based and what is not research-based and 
your organization is going to be the one that is going to play 
a decisive role.
    We had great debates about the quality of testing. That was 
something that was enormously important. We have tried to 
ensure that those tests that children are going to take are 
really going to be based upon State standards and curriculum, 
with well-trained teachers and fair assessments of these 
children.
    And we also introduced the concept of supplemental 
services. For a lot of different communities this is a new 
concept and a new phenomenon. How are we going to know if those 
supplementary services are really going to be high quality?
    And as we look at teachers and teacher training and 
professional development, we all understand we have a serious 
shortage of teachers. How are we going to recruit? How are we 
going to retain those teachers? The professional development 
programs in the various schools--how will we know which ones 
are working; which are not?--so that we can share that kind of 
information with other districts across the country.
    And early education, which we are working on, the zero 
through three programs and the early intervention programs, 
which I am very hopeful we will be able to achieve with Mrs. 
Bush. The First Lady has shown enormously impressive leadership 
in the area of early education. We are working on that in a 
bipartisan way. It has been the research that was done in this 
area that really demonstrated the importance of interventions 
from the zero to five. That research was a wake-up call for us 
to take action. This is the kind of effort that can be 
enormously valuable to us.
    So this department has an incredible opportunity, 
unparalleled, I think now, in terms of where we are and we want 
to give you all the help and support you need. We are going to 
be depending on you, so we want to work very closely. We are 
grateful to you for the efforts that you have made working with 
this committee, all the members of the committee, in terms of 
the reauthorization and we want to say that we want OERI to be 
what NIH is and what the National Science Foundation is. And 
you are the man to do it. So we want to try to make it a 
success.
    If Senator Jeffords would like to----

                 Opening Statement of Senator Jeffords

    Senator Jeffords. Well, you said about everything I wanted 
to say so I won't go on at length but I am concerned about 
certain issues which maybe are not research-type but they are 
existing situations, like, for instance, where are we going to 
get the talented people in math and science to teach our kids. 
Right now we have a huge lack of that. Anyone that is any good 
at that gets stripped off by companies and organizations which 
are desperate for them. We have now a million H1B young people 
working in that industry because we cannot produce the 
necessary math and science kids, young people, whatever. Is 
that within your jurisdiction? Is that something you do? Or how 
do we find those answers?
    I know I talked to Rick Mills, the head of the New York 
City school system, and he said that 78 percent of his math 
teachers are over the age of 55 and how is he going to replace 
those math teachers in the next few years as they get their 
pensions? And they obviously are there because they were close 
to getting their pensions and everybody else went out and got a 
job at much higher pay in industry. So that is just a few of 
the little problems we have.
    I wonder if you would get into those things or who we can 
look to, if not, for those kinds of answers. That is not a 
question; it is a statement.
    The Chairman. Well, we have your whole statement in the 
record.
    Mr. Whitehurst?

     STATEMENT OF RUSS WHITEHURST, ASSISTANT SECRETARY FOR 
 EDUCATIONAL RESEARCH AND IMPROVEMENT, DEPARTMENT OF EDUCATION

    Mr. Whitehurst. Thank you very much, Senator Kennedy, 
Senator Jeffords. I am very pleased for the opportunity to 
testify today.
    Mr. Chairman, you may remember that you and I spent a day 
and a half together in February over at Georgetown University 
talking about preschool education and I came away from that 
experience impressed not only with your interest in preschool 
issues and your willingness to be there on a Saturday morning 
to talk about them but also your concern with having research 
evidence inform public policy in that particular arena. I think 
that is really what the reauthorization of the Research and 
Statistics Office within the department is all about--having 
high quality research that is relevant to education policy and 
encouraging the use of that research in decision-making.
    You have mentioned the No Child Left Behind Act and that is 
very important in what we are doing here. It certainly sent a 
signal that the Congress as a whole is concerned about research 
informing policy because by my count, the phrase 
scientifically-based research appears 110 times in that 
document. So if scientifically-based research is going to be 
the key to reform of our most important Federal education 
programs, I think we had better make sure that we have research 
of high quality and relevance that can be utilized by those who 
are making education decisions and education policy.
    I am here to tell you that we have significant gaps in 
research coverage and quality. Senator Kennedy, you certainly 
mentioned several of the areas in which we need to know a lot 
more. Let me focus on simply one, and that is preschool 
education. We do have a number of longitudinal studies that 
began 25 or 30 years ago that have indicated that high quality, 
intensive preschool experiences can have very positive effects 
on children as they move through school and into life and 
certainly pay back their investment to society as a whole. And 
in part based on that research, we have public policy moving 
toward providing preschool services for all children.
    When you look at what States are doing in this area you 
find that they are making available those services. The State 
of Georgia is a leader in this area. It has a universal pre-K 
program that allows providers in that State to choose among 
seven different nationally available curriculum. But which of 
those curriculum work? Which work best for what kids, under 
what circumstances? We simply do not know. We have launched a 
research agenda this year to try to address that issue. We hope 
we will be able to do so relatively shortly. But we could sit 
here all day and I could provide you a long list of such 
questions that are very important to informing public policy. 
Where in principle we could address them and provide answers, 
we simply have not been able to do so so far. We need to do 
that going forward.
    One of the things that has surprised me as I have taken on 
this job in the last year or so is that even in the absence of 
research, there is no lack of passion and commitment to 
particular answers. A lot of education is an evidence-free zone 
in which people have strong opinions that are not supported by 
much in the way of data. So we have to have research and we 
have to have high quality research and we have to convince 
people to turn to research when they are trying to make 
important decisions.
    We have models. One is medicine. It is interesting that 
what we know as modern medicine is a relatively recent 
invention. The first clinical trial in medicine occurs at about 
the time of World War II. The FDA stepped in to regulate the 
selling of drugs to the public in the early 1960s and the whole 
concept of evidence-based medicine, a set of decision-making 
tools that practitioners can turn to to help them make 
decisions in the sort of treatment regimens they select for 
patients, is recent; it occurred in the 1990s.
    So the revolution of medicine in the last 50 years suggests 
that we can do that in other fields, as well, that it does not 
take as long. And certainly now that we have models to build 
our work on, I think it will take substantially less than 50 
years to get it accomplished in education.
    We do badly need the reauthorization of the office I am 
responsible for. The authorization expired in 1999. We have 
been moving forward but it is difficult to do so without new 
legislation. It is a difficult management job. People are not 
sure what they are doing and what they will be doing next week. 
It is difficult to hire people. Where would I be? What would I 
do? It is difficult to push for the sort of budget changes we 
need in the absence of a clear statute that will guide us going 
forward.
    As this committee addresses new legislation, there are 
several things that I think would be important. Let me mention 
some of them.
    We have problems with our administrative structure. We are 
organized into five internal research institutes, I think 
modeled on the NIH structure, but they simply have not worked. 
They interfere with new initiatives. We, for example, launched 
a new research initiative in reading comprehension this year. 
Should that be the responsibility of the At-Risk Institute or 
the Achievement Institute? Or should it be the focus of the 
Early Childhood Institute? Or because it relates to adult 
skills, should it be the focus of the Adult Institute? It is 
very hard to say and yet the strictures associated with our 
structure prevent us from spending more than 10 percent of our 
funds on cross-cutting initiatives. So we have a structure here 
that perhaps made sense when it was established in 1994 but I 
simply have to tell you it gets in the way of the work that 
needs to be done.
    We think that new legislation should provide for a simple 
and uncluttered organizational framework. There would be a 
director who would head the entity that would include at least 
three centers--one responsible for research, one responsible 
for statistics, and one responsible for evaluation.
    The recent National Research Council report on scientific 
research in education concluded that building a scientific 
culture with the department's research agency is really a 
prerequisite for everything else. I strongly agree with that. 
In order to do this we need to hire scientists on accepted 
service positions who can rotate in and out of the agency to 
bring up-to-date skills and knowledge to the tasks that we have 
to accomplish and we need to continue the current accepted 
service authority, which allows us to hire such people for 
short terms outside the regular civil service. I have found in 
the five or six people I have been able to hire so far that 
having the flexibility of accepted service was critical to the 
recruitment that needed to be done.
    One of the problems with the OERI in the past has been lack 
of stability in leadership. There have been more assistant 
secretaries and acting assistant secretaries than there have 
been years of existence of the agency I am responsible for. So 
I hope in thinking about new legislation the committee will 
consider ways that would promote continuity in leadership, both 
at the top and at the middle management level.
    The Department of Ed and OERI suffer under a number of 
regulatory burdens that are unlike those under which our sister 
agencies--the NIH and NSF--function. For example, to initiate 
new grant competitions we have to publish in the Federal 
Register what we intend to do. We have to wait for a period of 
public comment, revise in light of that. This can add months to 
the process and moves our competitions to the latter half of 
any fiscal year. That makes some sense for Department of 
Education programs that are directed toward the general public 
or educators but we are writing announcements for the 
scientific community, so when we do this we find we get little 
back in the way of public comment. It takes months and simply 
slows down and gums up the works considerably.
    Also, unlike our sister research agencies, we are not 
exempt from the Federal Advisory Committee Act as it relates to 
peer review committees. So whereas the NIH can establish a 
standing peer review committee in a particular area and have it 
on-going for a number of months or years, we are unable to have 
a review committee that meets more than once without chartering 
it as a Federal advisory committee. We cannot do that because 
applications typically involve proprietary information. So our 
committees can meet only once and cannot issue an opinion as a 
committee as a whole. We need relief from these and other 
regulatory burdens so that we can operate as the NIH and the 
NSF do.
    Another important issue I think is critically important is 
to separate the research agency from the responsibility for 
delivering educational programs and technical assistance. Over 
the years such activities have been assigned to OERI in 
increasing numbers to the point that over two-thirds of our 
budget is directed toward these nonresearch activities. It is 
very difficult for us to fulfill the role of nonpartisan 
evaluation of education programs when we are delivering some of 
the same programs we are supposed to be evaluating. It also 
produces a lack of concentration on our core task when so many 
of our administrative activities and time are devoted to these 
nonresearch activities. It also interferes with establishing a 
scientific culture within the agency because so many of our 
personnel have to devote their time to activities that are not 
research or statistics. We think it is very important to have a 
close intellectual connection between research and programs and 
technical assistance but we think there needs to be an 
operational division between those functions.
    Finally in terms of resources, we need adequate resources 
to support and sustain a cumulative research program in the 
areas that we are interested in and in which the Congress has 
interest. The entire research and statistics budget for my 
agency for fiscal year 2002 is a fraction of 1 percent of the 
department's discretionary budget. The core research and 
dissemination budget is only $122 million.
    The university where I worked before I came here, State 
University of New York at Stonybrook, spends more annually on 
research than the U.S. Department of Education. One of my 
friends said it is not that OERI is broken; it is broke. We 
need sufficient funds to sustain and develop the work that we 
need to accomplish. I am very pleased that the president is 
committed to increased funding for education research, has 
proposed a 44 percent increase for research for the next fiscal 
year and a 12 percent increase in statistics. We need the 
support of Congress in making an appropriation that is 
consistent with this request so that we can move forward on the 
important work that needs to be done.
    I agree with Senator Kennedy that we have here a unique and 
unparalleled opportunity to begin a process that will make 
American education an evidence-based field. I think it is 
possible to get to a tipping point after which people will no 
longer be satisfied with comments like ``We already know what 
we need to do'' or ``You've got your data and I've got my 
data.'' Rather, we will get to a point where evidence from 
research is seen as extremely important and valid in making 
decisions.
    I was cheered to hear a person who deals with a State 
education agency saying that there had been a dramatic change 
in her State in the last 10 years. It used to be people came to 
meetings and they were simply there with opinions and that now 
the model was ``In God we trust; all others bring data.'' I 
think we can get to that point and we can get to that point 
relatively soon and that the learners of American society 
itself will be the benefit of that.
    Thank you very much. I would be pleased to respond to any 
questions or comments that you have.
    The Chairman. Well, it is a very comprehensive set of 
recommendations that you have outlined here and you have 
obviously thought a good deal about this, both the mission and 
how to get there. I was struck in your testimony about the 
current statute as well as how the previous administration led 
OERI to be responsible for a large number of nonresearch 
programs. You list character education earmarks, funds for the 
improvement of education, and technology. You also believe it 
is critically important to separate the research from the 
responsibility for delivering education and technical 
assistance.
    I think you point out with the number of these programs, 
that over two-thirds of your budget is devoted to this 
nonresearch and the impact of those nonresearch programs. How 
would you best recommend that these programs be dealt with?
    Mr. Whitehurst. I think the programs ought to be associated 
with their funding statutes and connected with the program 
offices in the department that are most relevant to the 
particular services being delivered--character education, as a 
case in point. We intend to have a robust research program on 
character education. However, I think the delivery of funds to 
States to enable them to have character education programs in 
the school is an Elementary and Secondary Education Office 
function and would be best placed there. I think all the 
programs on our list have a home that is more or less natural 
and it would be appropriate for them to be placed there.
    The Chairman. And we will go over those with you. I think 
you make a strong argument for that.
    What can you tell us about the efforts that we made in to 
No Child Left Behind? You mentioned that bill references 
scientific-based or research-based 110 times. Can you give us 
some kind of idea about how long it will take for research in 
some of these areas? The department now is busy drafting the 
regulations on a lot of these areas. We insist on science-
based, research-based. We all understand a lot of this has not 
been done, so what is your sense of the flow line of what you 
can do and what help you can provide to local communities, to 
the States, and to us to be able to evaluate it and, I think 
most importantly work with parents and teachers?
    Mr. Whitehurst. What we have in mind is really a short game 
and a long game. The short game is to identify those areas in 
which there are existing programs and practices that are 
available, they are exportable in the sense that it is not 
something that has been developed at a particular school and 
where the ability to carry it out depends on the wisdom of 
somebody in that school but it is something that has a manual 
associated with it or videotapes.
    Whenever we can find those sorts of programs associated 
with significant educational goals, such as those in the 
Elementary and Secondary Education Act, we are going to 
evaluate them and find out which ones work best. We think in 
many cases we can do that in short order--within a year or 
two--provide data on at least the immediate effects of various 
education programs.
    At the same time we need to understand that the development 
of education programs depends on a research base, on knowledge 
and understanding of underlying mechanisms of how people learn 
and how they best are taught. So we need a long-term agenda 
that will provide fundamental knowledge that could inform the 
next generation of educational products and interventions and 
approaches.
    So we have in mind, for example, a long-term research 
agenda in reading comprehension. We think we have a lot of 
knowledge with respect to how children learn to read but not 
much knowledge with regard to how they read to learn once they 
hit middle school and high school and we think it will take 10 
years to generate the sort of fundamental knowledge that would 
allow the designer of an educational product or program or 
textbook to take that knowledge and build it in.
    So I hope to be able to provide, with the help of the 
administration, the people in the office, some answers to ESEA 
questions relatively shortly and then provide fundamental 
knowledge that will make us able to design better interventions 
further out.
    We also have an effort under way called the What Works 
Clearinghouse, which will be for the first time a place that 
people can turn for evidence with respect to educational 
products and programs and approaches that will not provide a 
list of accepted programs but simply will provide information 
on how much research exists, what its quality is and what its 
direction is. We are not without research in many important 
areas and we hope that the What Works Clearinghouse will be the 
major portal to the sort of evidence that is out there that can 
be usable by parents and educators.
    The Chairman. We would urge the priority in all of these 
programs. I think one in particular priority is this 
professional development. All of the aspects reinforce each 
other; we understand that. But really getting well qualified 
teachers and getting the professional development they need and 
delivering it in ways that are going to make the teaching 
exciting to people should be a priority. But being able to get 
some information on quality programs could be extremely useful 
to schools and that is an important priority. A good deal of 
work has been done but we want to do more. As we look down the 
road we have the Higher Ed Act, where there will be an 
important intersect in terms of the training of teachers. We 
want to try to draw from you the kinds of experience and best 
practices as we shape the legislation, rather than just sort of 
following along in the older paths.
    I am sure you are aware of this but this is going to be 
enormously important. In addition we have the IDEA issues that 
are before us, as well. That is going to be enormously 
important reauthorization. So we have a flow line in terms of 
what we have a responsibility for and we want to try, to the 
extent we can, to intersect with OERI. You are going to have to 
make your own judgments but we want to try and rely on OERI as 
much as we possibly can.
    I am going to welcome Senator Enzi here and we have been 
joined by Senator Reed. I am going to go to Senator Jeffords 
and then to Senator Enzi, and Senator Reed is going to chair. 
They just called me from the floor for a few minutes. Senator 
Jeffords?
    Senator Jeffords. It is a pleasure to have you here. I have 
been waiting for this opportunity because I think there is so 
much that we need to be able to get that we have not been able 
to get.
    I know that OERI is separate from the National Center for 
Educational Statistics and that NCES does a great job with 
limited funds. How can we better coordinate the NCES findings 
with research conducted by OERI?
    Mr. Whitehurst. That is a very important issue and 
challenge. I found it a pleasure to work with the staff at 
NCES. One of the things I have tried to do is get us to focus 
more as an organization on how we can leverage our investment 
in research and statistics to get the maximal benefit and to 
answer a set of questions that are useful not only in terms of 
indicating the condition of education, which is typically what 
NCES addresses, but also at the same time to provide answers 
that will allow us to better understand how to change the 
condition of education to make it better.
    I think an organizational structure in which evaluation, 
research and statistics are co-equal branches of an overall 
research agency and where funding decisions, budget preparation 
and other matters are coordinated among those three centers is 
likely to produce the sort of direction you are talking about 
and I think it is very important.
    Senator Jeffords. Has OERI or will OERI conduct research on 
the effectiveness of testing as a sole measure of student 
achievement? And what is OERI currently doing regarding 
research on early childhood education?
    Mr. Whitehurst. We do not have a research program focussed 
on the effects of testing only on student achievement. We do 
understand that the product of a good educational system is 
much more than a child who can read and write, add and 
subtract. As you know, there is a large program in character 
education; I mentioned that previously in my testimony. We 
would like very much to launch a research agenda in 
socialization and character education that will focus on the 
many aspects of progressive through school that we think 
ultimately are important to academic achievement but are not 
academic achievement itself.
    And I think when we are looking at that broad spectrum of 
outcomes we will be able to analyze the effects of testing and 
testing in what on the effects across the board in terms of 
again the sorts of characteristics we would like for a well 
educated child to have when that child exits from the public 
school system.
    Senator Jeffords. Well, as Senator Kennedy noted, Congress 
will be reauthorizing the Higher Education Act. Are there any 
studies on teacher preparation that may be helpful?
    Mr. Whitehurst. This is something that I have been talking 
about a lot recently. I gave a keynote address at the White 
House Conference on Professional Development of Teachers and 
have been going around the country talking on this topic.
    There is research there. The research really relates more 
to selection factors than it does professional development 
factors. I can tell you based on a lot of large-scale research 
that has been done, that if you have $40,000 a year to spend on 
hiring a new teacher, selecting someone with this 
characteristic would be a better bet than selecting someone 
with that characteristic. We have that sort of research.
    We have much less research that indicates what is the best 
form of professional development or preservice training of 
teachers that addresses a question you raised earlier about how 
can we best attract the most qualified teachers to schools and 
keep them there and I think those are issues that we will need 
to address, both in OERI's research agenda and in other 
research endeavors by the department and other Federal 
agencies. It is extremely important.
    Senator Jeffords. Many teachers and other school personnel 
are desperate for good information on an array of topics. The 
labs and the Comprehensive Centers disseminate this 
information. How can we improve the dissemination process so 
that it is more useful?
    Mr. Whitehurst. I think it is very important for this 
committee to address that in the legislation that is being 
written. In response to a question from staffers on the 
committee, we are asked to determine what are the various 
technical assistance entities in the U.S. Department of 
Education and it actually took us longer to answer that 
question than I thought that it would because there are so 
many. I am making up the number now but there were over 20 
different entities within the department responsible for 
providing technical assistance.
    I think it must be very difficult if you are a school 
superintendent and you have a question to which you need an 
answer to know where to turn. I think one thing that is 
important to do is to have a simplified, coordinated, clear 
technical assistance mechanism within the department so that 
people who have questions know where to turn. It should not 
have to be that you turn to this agency if you have a question 
about technology, you turn to this organization if you have a 
question about professional development of teachers, you turn 
to this organization if you have a question about assessment. 
There should be one-stop shopping and I think we need to do 
that.
    Senator Jeffords. Under the administration's OERI proposal 
and the limited funding which OERI has traditionally received, 
can OERI provide effective research on a vast array of issues, 
or until there is a legitimate amount of funding should OERI 
concentrate on two or three areas and do them well, as opposed 
to trying to do everything with insufficient funds?
    Mr. Whitehurst. We need to focus; there is just no question 
about that. OERI's agenda in the past has been spread all over 
the map. There is no denying that every one of the topics 
addressed is an important topic but I think implicit in your 
comment is the fact that we cannot do all of those things well.
    So we are trying to focus and to focus in areas of great 
need and high public concern and to do that in such a way that 
the research that we fund will be of high quality and 
relevance. So focus is the way to go.
    Senator Jeffords. Let me give you a pragmatic question. I 
have followed the TIMS exams over the years and have watched 
what happens relative to our young people and the world's young 
people and come out terrible. We start off even in the fourth 
grade and by the time they graduate we are at the bottom of the 
heap. It seems fairly easy to be able to identify problems 
which result in that, not the least of which is the length of 
the school year and certain obvious things.
    Should you answer a broad question like that? Help us 
understand why we keep having TIMS and why we do not see any 
improvement.
    Mr. Whitehurst. Yes. We have been having meetings and have 
funded an outside organization, the RAND Corporation, to advise 
us on a research agenda in math education and questions such as 
the ones you have raised would be key to such a research 
agenda. We need, for example, to understand what goes on in 
math classrooms of our overseas partners that is different from 
what goes on in classrooms here and how can that be changed?
    We know that we have to address problems such as out-of-
field teaching. Middle school students in this country are 
taught math more than half the time by teachers who have no 
major or minor in math. It is not the case overseas that 
students are being taught math by teachers with no training in 
that field.
    So there are a variety of areas here where statistics, 
comparative studies like TIMS, as well as careful research 
studies that look at changes in practice and how they affect 
outcomes can provide, I think, important information in going 
forward to deal with some of the real problems in math 
achievement and the drop-off in math achievement over the 
school years that you have described.
    Senator Jeffords. Let me go one step further on that one. 
Would you give us a less perhaps relevant answer, but how do we 
make sure that the teachers have the basic math and are 
available and why aren't they now?
    Mr. Whitehurst. We need to understand, I think, what 
schools may be able to do to structure incentive systems in 
order to attract people in fields in which there are many 
employment opportunities outside of school settings. OERI has 
funded research on compensation systems and will continue to do 
that. It seems to me that is part of it because in your remarks 
you have noted that good math teachers leave to work in 
industry. Well, they leave to work in industry in part, because 
of pay and in part, because of work conditions. If we could 
understand how to control those factors to keep math teachers 
in schools, that would be to everybody's benefit.
    Senator Jeffords. That is a relevant question for you to 
answer?
    Mr. Whitehurst. Sure. I think that questions about the 
structure of compensation systems and the effect they have on 
the retention of teachers is a very researchable question. I 
think questions with regard to induction systems for teachers 
and support systems for teachers are very researchable and 
relevant. We know that teachers leave the profession in high 
numbers in the first 5 years. What can we do to keep them there 
is a question of practice and which practice works best, and 
that is researchable, yes.
    Senator Jeffords. Senator Reed, I think you are in charge.
    Senator Reed. [presiding]. That is a harrowing thought.
    I think in that case, Senator Enzi?

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. And I would like to 
thank Senator Kennedy for having this hearing and his staff for 
working with us on ways that we can get increased research for 
rural education.
    I am from a very rural State. I made a statement before 
that we have some rules on how far kids can be transported in 
order to go to school and that results in some schools having 
two or three kids because we do not like elementary kids to 
have to travel more than 60 miles before and after school. 
There is quite a bit of disbelief that there would be any 
schools that small or kids that far from anybody else but it 
happens out our way and we are one of seven States that get to 
join with the help of McCrell in doing some real rural research 
for ways that education can be done and it makes a tremendous 
difference to us. Without that help, none of us wind up with 
enough funds under the formula to be able to do it on our own.
    So this hearing is particularly critical to us and I would 
ask that my full statement be----
    Senator Reed. Without objection.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you Mr. Chairman. I am pleased to be here this 
morning to discuss the upcoming reauthorization of the Office 
of Educational Research and Improvement (OERI).
    The issue of educational research has always been important 
to me because I feel that one of the most important functions 
of the U.S. Department of Education is to provide quality 
technical assistance and support to States and local schools as 
they develop and implement their own individualized academic 
achievement and improvement measures.
    The improved accountability measures and increased focus on 
student achievement in the No Child Left Behind Act makes 
educational research even more critical. It is my hope that as 
this committee moves forward with the reauthorization of the 
OERI that we can work together to ensure that all federally 
funded educational research is responsive to the needs of 
States and local school districts, and is focused on the goal 
of attaining high levels of academic achievement for all 
students.
    I would like to take this opportunity to talk about one of 
the most important things that the OERI does for Wyoming, which 
is provide us with the excellent services of our regional 
educational laboratory, Mid-continent Research for Education 
and Learning or McREL. McREL, which serves as the regional 
education lab for seven States in the central U.S., has been 
critical in assisting Wyoming in educational reforms that have 
resulted from a 1995 State U.S. U.S. Supreme Court ruling. They 
have also assisted the State in examining strategies to raise 
student achievement in mathematics and improve teacher quality 
throughout the region. Most recently, McREL has been of 
assistance to the State of Wyoming by agreeing to administer 
their State Challenge Grant for Leadership Development, a 
$975,000 grant that was awarded by the Gates Foundation. The 
grant will be used to assist school superintendents and 
principals in creating a high achieving, technology rich 
educational system for all students.
    Mr. Chairman, I would ask that a copy of a letter from 
Wyoming's Superintendent of Public Instruction, Judy Catchpole, 
detailing the important contribution that McREL has made to my 
State's educational system be made a part of the record.
    As the Senate continues to examine the issue of how to 
reauthorize the OERI, I hope that we can maintain many of the 
positive aspects of the House passed legislation, while making 
sure that regional labs that are performing well under the 
current system, such as McREL, are allowed to continue their 
excellent work. It is also my hope that an increased emphasis 
on the unique needs of rural areas can be included in any 
Senate legislation that reauthorizes the OERI.
    Thank you Mr. Chairman. I appreciate your holding this 
hearing, and I look forward to continuing to work with you on 
this issue.
    Senator Enzi. I also have a letter from our State 
superintendent of public instruction and I would like that 
letter to be part of the record, too, emphasizing the need for 
these funds.
    Senator Reed. Without objection.
    [The letter follows:]
                                ------                                

                                                     June 20. 2002.
Hon. Michael B. Enzi,
U.S. Senate,
Washington, DC. 20510.
    Dear Senator Enzi: I am writing this letter in support of 
the Mid-continent Research for Education and Learning (McREL) 
Laboratory. McREL has served a seven-State central region-
Colorado, Kansas, Missouri. Nebraska, North Dakota. and Wyoming 
since 1966. Through its work as the region's educational 
laboratory and Mid-continent Eisenhower Consortium for 
Mathematics and Science, McREL works with its constituents to 
improve the quality of education policy and practice using the 
application of the best available knowledge from research, 
development and experience.
    As you are aware, Wyoming has been involved in education 
reform since 1995 due to a Wyoming U.S. U.S. Supreme Court 
ruling. For the past 8 years, McREL has been a valued partner 
in our reform process. It has been involved in several 
activities and projects that have helped move our reform 
forward.
    McREL's work under the ``Standards in the Classroom'' 
project is designed to contribute knowledge and resources about 
standards and their impact on classroom practices. This work 
has focused on (1) developing a process for evaluating and 
developing local standards and aligning them with classroom 
practice, (2) creating and disseminating resources to assist 
teachers in developing and implementing standards-based 
curriculum, (3) identifying instructional practices that are 
effective with diverse students, (4) providing support for 
educators and policy makers in the development of assessment 
and accountability systems, and (5) identifying strategies and 
resources that support students. especially those who struggle 
to meet standards.
    McREL's Mid-continent Eisenhower Regional Consortium for 
Mathematics and Science has helped to establish the Best in the 
West Mathematics Alliance (BWMA). BWMA, a group of ten 
districts from northeast Wyoming which represents 32 percent of 
the State's student population is examining strategies to raise 
student achievement in mathematics on the Wyoming Comprehensive 
Assessment System (WyCAS).
    McREL's work in the area of ``Teacher Quality'' has been 
designed to support teacher learning, improve K-12 teaching, 
and address the region's teacher quality issues. McREL's work 
has focused on four areas: (1) professional development 
infrastructure, (2) teacher preparation and licensure, (3) 
teacher learning, (4) teacher recruitment and retention. McREL 
not only completed the publication, Blueprint: Ensuring Quality 
Teaching and Leadership in Wyoming, but also provided expert 
testimony for the Wyoming Legislature related to the blueprint.
    McREL's work under ``Leadership Capacity Building'' has 
been designed to provide opportunities and materials to assist 
the Wyoming Department of Education staff and district and 
building administrators to acquire the leadership skills they 
need to help create high-performing districts and schools. 
McREL has also helped in developing and implementing the Bill 
Gates Leadership Grant. This grant provides Wyoming education 
leaders with financial resources to develop and deliver 
critical training.
    The activities and projects outlined above give you an idea 
of the important work that McREL has done in Wyoming. In a 
small State, our partnership with McREL has helped us make 
dramatic progress in a short period of time. Our partnership is 
an example of a regional laboratory providing quality customer 
service. Because of this service and the hard work of the 
Wyoming Department of Education staff, we are positioned well 
to fully implement the ``No Child Left Behind'' legislation.
    If you have questions or need more information, please 
contact me.
            Sincerely,
                                            Judy Catchpole,
                              Superintendent of Public Instruction.
                                ------                                

    Senator Enzi. Thank you. And with that, I will turn to some 
questions.
    Of course, one of the things that we are particularly 
interested in in Wyoming is having some technology in the 
classroom. We use that to communicate between classrooms, some 
of these isolated classrooms. So far, scientifically-based 
research seems to have little relevance, particularly with the 
department. Will there be a time when the U.S. Department of 
Education will conduct research on technology education to 
assist the schools in putting that in place?
    Mr. Whitehurst. Yes, indeed. There is a substantial amount 
of money that is available in ESEA in the national activities 
account with respect to technology programs to launch a 
research initiative. And the conversations I have engaged in 
with respect to that initiative have acknowledge something I 
think is quite important. That is that the questions that have 
been asked previously, such as does technology work, are simply 
too broad and gross to be useful. We know that technology works 
in the sense that roadways work. You have to have wiring; you 
have to have computers.
    I think we are to a point now where we need to be asking 
questions about particular applications. Will this application 
help teachers in a State like Wyoming get the professional 
development they need to deliver effective reading instruction 
in the classroom? Will this particular application in 
classrooms for fourth graders help in the acquisition of math 
in a way that might be difficult otherwise? And I hope that we 
will be able to utilize some of the national technology money 
to address the effectiveness of particular applications of the 
sort that I have described.
    Senator Enzi. I kind of want to divorce the next question 
from the last one because it is not strictly technology-based, 
but what role can your office play in turning education into a 
scientifically based field?
    Mr. Whitehurst. Well, I think we have a critical role to 
play. We can do that in a number of ways. It can be done within 
the Department of Education by, to the extent possible, seeing 
that other program offices utilize the best available research 
in designing their program announcements and in holding the 
competitions that are discretionary to deliver funds.
    So one of the roles we have is to make sure that the 
department practices what it preaches, and that is a role I 
have, to go around to other assistant secretaries and say look, 
consider this research before you go forward and structure your 
competition in the following ways.
    We can also, I think, provide a very critical function for 
education decision-makers, whether they are administrators or 
parents, in making the best available information from good 
research available in an easily used and understood form so 
that if you are trying to select a particular approach toward 
reading you can go and find out what evidence exists with 
respect to that decision and make your professional decision 
utilizing that evidence to the extent that you can.
    One of the things that chiefs around the country tell me 
and also school superintendents is that there is not a vendor 
or product developer who comes through their offices who does 
not say my research or my product is research-based and 
scientifically proven and we simply need to provide people the 
decision aids and the decision tools they need to determine 
which of those claims is valid and which of those claims is 
not.
    Senator Enzi. Thank you.
    Senator Reed. Thank you, Senator Enzi.
    Let me ask a few questions, Dr. Whitehurst, before I 
recognize Senator Clinton for her questions and then bring on 
the next panel.
    The strength of our regional education laboratories has 
been their focus on applied research driven by regional needs--
client-based requests for help and assistance--and their 
ability to reach out to both rural areas and urban centers in 
these regions. Given the proposed restructuring of OERI under 
the House legislation, how do you envision that the important 
work of the regional laboratories will be maintained and 
strengthened?
    Mr. Whitehurst. I spent the last year getting to know the 
regional laboratories I think reasonably well. Also, I spent 
the last year seeing the department struggle with the Herculean 
task of providing the assistance that States and localities 
need in carrying out the No Child Left Behind Act. The 
laboratories, the Comprehensive Regional Assistance Centers, 
the RTACs, represent the troops on the ground that are 
necessary to provide the technical assistance that is needed in 
regions such as yours.
    So I think it is vitally important in writing this 
legislation that there be a consistent, coherent and 
appropriate approach to technical assistance and regional R&D 
that serves those needs and serves them better than they have 
been served in the past.
    Senator Reed. Thank you, Doctor.
    It is my understanding from looking at the House 
legislation that there would be a separation between the 
nationally driven research component and the regional research 
and it seems to me for some of the reasons you indicated in 
your previous response that there has to be a closer link, 
since ultimately, as we envision the system today, the regional 
labs are the ones that are actually interacting with local 
school systems.
    Can you comment upon this apparent cleavage between the 
national research agenda and the regional research agendas in 
the House bill?
    Mr. Whitehurst. I think that the strengths of the regional 
labs, with exceptions, are not in research. They are in 
technical assistance. Some of the regional labs are actively 
involved in developing products and approaches but a fully 
applied R&D cycle involves developing products and approaches, 
testing those products and approaches to see the degree to 
which they work or fail, revising in light of that evidence 
until the desired goal is reached. I think too much of what 
goes on in terms of regional R&D is the development of products 
but not the careful testing and assessment of the effectiveness 
of those products.
    As I have talked to some regional labs, and I do not intend 
to represent their views collectively, I have been told and I 
think what I have been told is reasonable, that the regional 
labs are simply not in a position to attract and retain the 
personnel who are capable of carrying out high quality applied 
research. They compete with universities in their region. It is 
difficult to maintain that sort of personnel.
    I think again that the regional labs and the sweet spot for 
the regional labs is providing the help that schools and States 
need in getting the job done. That will often be data-driven 
help, having schools understand, for example, how they can take 
their assessment system and use it to drive instruction in the 
classroom and provide information to teachers in real time that 
will be useful, and those will be very important tasks to be 
done. I think it needs to be connected again with technical 
assistance, with providing help. I do not see it primarily as a 
research job.
    Senator Reed. Thank you, Doctor.
    One final comment, perhaps a question. The emphasis now 
seems to be on raising the level of resources devoted to 
research at the national level. It strikes me that even if we 
are wildly successful we will never have within the Department 
of Education a huge research operation. So that means we have 
to depend upon institutions, colleges of education, and 
graduate schools of education for research, yet it also strikes 
me that there is not as much research going on in those venues 
as there should be.
    So within this authorization or outside of it, we have to 
begin to think about how we can encourage more resources for 
research at universities that can be translated by your 
department and the labs into practice.
    Mr. Whitehurst. Oh, quite so. And I would point out that 
with a few exceptions, we do not conduct any research in OERI 
at all. We simply fund it as it occurs elsewhere. We have 
proposed in our budget next year a substantial amount of 
funding to establish interdisciplinary predoctoral and 
postdoctoral training programs in education sciences. We 
believe that we need greater capacity and we need to encourage 
universities and encourage faculty in universities to devote 
their intellectual effort, time and motivation to the very 
important issues that face education.
    Senator Reed. Thank you very much, Dr. Whitehurst.
    Senator Clinton?
    Senator Clinton. Thank you, Senator Reed.
    And thank you, Dr. Whitehurst. I appreciate greatly your 
using your considerable expertise over many years to head this 
important enterprise within the Department of Education. I know 
that much of your research was done at SUNY-Stonybrook, which I 
think is a very nice tribute both to that university and to the 
intellectual efforts that you have been involved in, 
particularly with respect to preschool and language development 
and the development of those cognitive skills early on.
    I am concerned about just a few matters because I generally 
agree with your assessment that we have to do a better job in 
acquiring research to make decisions and that we need much more 
technical assistance to disseminate these findings, and assist 
classroom teachers, principals, parents and others in 
implementing them.
    I am interested in learning more about the House bill. I 
understand that the administration is not going to put forth 
its own bill so that Representative Castle's bill, I assume, 
represents the administration's position. Is that correct?
    Mr. Whitehurst. The administration supported the House 
bill. It is not our bill. Had we been given a clean sheet of 
paper it would have had some differences from the House bill 
but we were, in general, pleased with the House bill and think 
it is a very positive step forward.
    Senator Clinton. Well, would you advise in detail perhaps 
in writing what changes you would have made had you started 
with a clean plate? Because that is our mission here, to make 
sure that we come out with the best bill possible. And often 
the Senate will have a different perspective than the House. So 
I would appreciate your comments.
    One of the issues that I am particularly interested in 
pursuing with additional research is the effect of health and 
environmental factors on children and their cognitive 
development. I have become convinced after a number of years of 
following the research, that we are experiencing increases in 
learning difficulties and certain conditions like autism, and 
some of these increases are a result of interactions between 
environmental health, physical, mental and emotional, and the 
ability to learn.
    During the No Child Left Behind debate I was able to insert 
two provisions into the legislation to allow us to better 
understand the link between environmental health in our schools 
and children's cognitive development. As you may know, some 
countries have done some interesting research on access to 
sunlight, for example, and access to fresh air as opposed to 
reventilated air. It seems to improve both attendance and in 
some instances, particularly the Canadian research, actually 
academic achievement.
    There is a tremendous backlog of school repairs and we know 
that hundreds of students in scores of schools in more than 14 
States across the country have experienced all kinds of 
problems. Some of it may be attributed to psychogenic 
disorders, but some has also been linked to demolition debris, 
and mold. These factors have yielded respiratory problems, and 
rashes, and in the legislation I asked that we study this 
interaction to try to get a handle on the school environment. 
The larger environment issues we have to contend with as well, 
but I thought that within the No Child Left Behind, we should 
begin to do some research on child environmental health and 
what happens in school, since children spend so much time 
there.
    The study that was required under the legislation was to be 
completed by December 31 with recommendations for additional 
research or action to the Congress. I have sent two letters to 
Secretary Paige inquiring about the status of the Healthy and 
High Performance Schools Program, one on April 2, the other on 
May 8. I also asked Undersecretary Hickok about the status of 
this program at the committee's April 23 implementation 
hearing. I still have not received a response and I believe, 
looking at the organization chart, that OERI is responsible for 
conducting the study and I am going to ask, Mr. Chairman, if I 
can put a copy of this letter into the record. It is a letter 
to Secretary Paige with a copy to Dr. Whitehurst and I would 
like to leave this for you.
    Senator Reed. Without objection.
    [The letter was not available at press time, however, 
copies are maintained in the committee file.]
    Senator Clinton. I do hope that I can get a status update 
on this study and move it into the research agenda because one 
of the difficulties we are confronting, as we try to unpack the 
learning challenges that children face, is that not only do we 
have prenatal influences that we are well aware of, whether it 
is addiction or fetal alcohol syndrome, but we also have the 
continuing challenge of lead, mercury and other elements. I 
believe that any good research agenda has to include these new 
factors. Maybe they were always there, but they certainly seem 
to have come to the forefront now and I would very much 
appreciate a written response to this letter by the end of the 
week. Then I look forward to working with you in the future as 
you pursue this very important agenda on behalf of our 
children. Thank you, Dr. Whitehurst.
    Senator Reed. Thank you very much, Dr. Whitehurst, for your 
testimony. We all look forward to working with you in the days 
ahead as we try to shape this legislation. Thank you very much.
    Mr. Whitehurst. Thank you, Senator Reed.
    [The prepared statement of Mr. Whitehurst follows:]

               Prepared Statement of Grover J. Whitehurst

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to testify before you today regarding the reauthorization 
of research functions within the Department of Education.
    The shared understanding of the Congress and the Administration 
about the role of research in educational reform was evidenced vividly 
in the recent reauthorization of the Elementary and Secondary Education 
Act of 1965 (ESEA). In that bill, passed by overwhelming majorities in 
both chambers and signed into law by the President on January 8, the 
phrase scientifically-based research appears 110 times.
    Scientifically-based research will also be a component of reform in 
the upcoming reauthorization of the Individuals with Disabilities 
Education Act (IDEA). The ESEA and the IDEA account for approximately 
$30 billion in annual Federal expenditures within the Department of 
Education. Mr. Chairman and members of the committee, $30 billion is a 
lot of money. We all recognize that, historically, the huge annual 
investment in the education of disadvantaged students and students with 
disabilities has not achieved everything that was expected of it. For 
instance, in the most recent National Assessment of Educational 
Progress in reading, 40 percent of white 4th graders read at a 
proficient level, compared with only 12 percent of African-American 
students. In some urban school districts that serve predominantly 
disadvantaged children, 70 percent of 4th graders cannot read at even 
the basic level. Nothing has changed in the last decade in these 
statistics, and the overall gap between the highest and lowest 
performing students has actually increased in some subjects.
    If scientifically-based research is going to be the key to reform 
of our most important Federal education programs, then we had better 
make sure that the Federal office with the principal responsibility for 
generating that research has the tools it needs to get the job done. 
That is what we are here today to address.
    In facing that task, I want this committee to understand that we 
are dealing not only with gaps in student achievement, but also gaps in 
scientific knowledge. Consider some of the major program areas in the 
ESEA in which Congress instructed that funding decisions and practice 
should adhere to scientifically based research. These include the core 
academic subjects of reading, mathematics, and science, school-wide 
reform models, early literacy programs in preschools, professional 
development of teachers, supplementary educational services, education 
of gifted and talented students, character education, educational 
technology, and programs for safe and drug-free schools, among others.
    We have a substantial and persuasive research base in only one of 
these topics, learning how to read. However, even within reading, the 
research becomes substantially thinner when we move down the 
developmental range from learning to read in early elementary school to 
getting ready to read in the preschool period, and up the developmental 
range from learning to read in elementary school to reading to learn, 
otherwise known as reading comprehension, at later points in schooling. 
In the other core academic subjects of math and science, research has 
not progressed to a level at which it is possible to make strong 
statements about which approaches produce the strongest effects on 
academic achievement for which children in which circumstances. In the 
education and professional development of teachers, we don't have 
research to answer dozens of fundamental policy issues about how to 
best train and sustain teachers in order to enhance student learning. 
The ESEA authorizes supplementary educational services, such as after-
school tutoring, for children in failing schools. Which tutoring 
programs work best for which types of academic skill deficits? Sorry, 
we don't know. How about comprehensive school reform? The ESEA 
instructs local educational agencies to consider successful external 
models and to develop an approach to reform of their school that is 
derived from scientifically based research. By one count, there are 
well over 100 comprehensive school reform models from which a local 
educational agency might choose. Which of these are successful? That is 
hard to say, because only a few have been subjected to research, and 
much of that research isn't sufficiently rigorous to permit strong 
conclusions about the effects of the models compared to business as 
usual, much less compared to each other.
    My point, and I apologize for making it repetitiously, is that 
there is a lot we don't know about how learners learn and how to 
deliver instruction effectively.
    The extent of our ignorance is masked by a ``folk wisdom'' of 
education based on the experience of human beings over the millennia in 
passing information and skills from one generation to the next. This 
folk wisdom employs unsystematic techniques. It doesn't demand 
scientific knowledge of mechanisms of learning or organizational 
principles or social processes. It is inefficient, and it is hit or 
miss. It lets us muddle through when the tasks to be learned are 
simple, or in a highly elitist system in which we only expect those 
with the most talent and most cultural support to learn advanced 
skills. But it fails when the tasks to be learned are complex or when 
we expect that no child will be left behind. The tasks to be learned in 
a 21st century economy are without a doubt complex, and we have rightly 
decided that our education system must serve all learners well. We have 
to do better than we have done in the past.
    Consider the analogy of medicine. For thousands of years, folk 
remedies have been used to cure disease or relieve symptoms. But the 
successes of modern medicine have emerged in the last 75 years and 
derive from advances in the sciences of physiology and biochemistry 
that allowed us to understand the mechanisms of disease, and from the 
wide use of randomized clinical trials to determine which prevention 
and treatment approaches drawn from these sciences work as intended.
    Or consider the analogy of agriculture. For thousands of years, 
humans barely managed to avoid starvation by using agricultural methods 
that were passed from generation to generation. The abundance of 
inexpensive and nutritious foods that can be found at any neighborhood 
grocery store today results from agricultural practice that has moved 
from reliance on folk wisdom to reliance on science.
    When we come to education, the picture is different. The National 
Research Council has concluded that ``the world of education, unlike 
defense, health care, or industrial production, does not rest on a 
strong research base. In no other field are personal experience and 
ideology so frequently relied on to make policy choices, and in no 
other field is the research base so inadequate and little used.'' At 
the same time, the National Research Council has concluded that 
scientific inquiry in education is at its core the same as in all other 
fields. In other words, the core principles of scientific inquiry are 
as relevant for education as they are for medicine. There is every 
reason to believe that, if we invest in the education sciences and 
develop mechanisms to encourage evidence-based practice, we will see 
progress and transformation in education of the same order of magnitude 
as we have seen in medicine and agriculture. I believe we are at the 
dawn of exactly that process, and it is very exciting.
    How quickly will the transformation of education into an evidence-
based field occur? The actions of this committee and the Congress as it 
considers the reauthorization of the research functions in the 
Department of Education will have a lot to do with the answer to that 
question.
    A number of significant changes are necessary so that we can 
operate consistently with the standards of a science-based research 
agency and so that the research, evaluation, and statistical activities 
we fund lead to solving problems and answering questions of high 
relevance to education policy.
    Before assuming my current position, I spent 31 years conducting 
research on children's learning. I am proud to say that some of that 
research has proven useful to educators and parents. For the last 15 
months, I have focused exclusively on OERI, first as a consultant to 
the Department, and since July of last year as Assistant Secretary for 
Research and Improvement. My testimony today is informed both by my 
background as a practicing scientist and by my experiences to date in 
leading OERI.
    I believe that we have made substantial progress in OERI over the 
last year. To be specific, we have launched three major new cross-
cutting research initiatives--in reading comprehension, preschool 
curriculum, and learning in the classroom; we have hired a number of 
key personnel, we have brought the responsibility for the evaluation of 
the impact of Federal education programs into OERI and have designed a 
new generation of evaluations that will use scientifically rigorous 
randomized trials to provide definitive evidence of what works and what 
doesn't; we have helped the Department move toward a greater reliance 
on evidence in its delivery of programs; we have implemented new 
procedures for peer review of applications for research funding that 
are modeled on those used at the National Institutes of Health (NIH) 
and that are working very well to help us select only the very best 
proposals for funding; we have established a What Works Clearinghouse, 
which will vet the evidence from research on education and make it 
available to decision-makers in easily understood forms; and we have 
put forward to the Congress as part of the President's fiscal year 2003 
budget request an unprecedented and badly needed 44 percent increase in 
funding for our research functions and a 12 percent increase in funding 
for our statistics functions. I believe we have also created a positive 
buzz in the research community about the new OERI that helps us attract 
strong applications and that enhances the participation of 
distinguished scientists in our planning and review processes.
    If you are willing to take my description of these successes at 
face value, you might be tempted to draw the conclusion that the 
current OERI statute doesn't need fixing. Why not report out of this 
committee a bill that is pretty much the same as current law?
    Let me tell you why not: A lot of what we have accomplished in the 
last year has been much more difficult than it should have been because 
of the current statute. Further, I have been operating with a 
remarkable degree of support from within the Department, the 
Administration, and Congress, and from many non-Federal organizations 
that are eager to see the Federal education research agency 
revitalized. Appreciative as I am for that support, it is natural for 
enthusiasms to wax and wane. Further, I'm quite concerned that the 
alternative to progress will be backsliding and entropy rather than the 
status quo. We need an authorizing statute under which the Department's 
research agency can develop and sustain a cumulative research program, 
and we need it this year.
    Here are some major problems in the current statute that should be 
corrected in reauthorization.

Organizational Structure

    Institutes. OERI is currently divided into four principal 
operational arms: (1) the National Center for Education Statistics, 
which conducts surveys and assessments to determine the condition of 
education; (2) the Office of Reform Assistance and Dissemination, which 
monitors ten regional educational laboratories and administers a large 
number of programs funded under the ESEA, (3) the National Library of 
Education, which manages a physical library in the Department of 
Education as well as an electronic repository of documents in education 
called the Educational Resources Information Clearinghouse; and (4) the 
National Research Institutes, which are five administrative units that 
manage research centers at universities and field-initiated grants to 
individual researchers.
    This administrative structure is seriously problematic. The five 
national research institutes have overlapping responsibilities, 
redundant personnel functions, and statutory restrictions on funding 
that do not permit the agency to pursue a focused agenda or to support 
significant programs of research. To be specific, the statute requires 
that an equal amount of the funds appropriated for research be made 
available to the Achievement and Assessment Institute and the At-Risk 
Institute; that each of the five national research institutes use at 
least one-third of its share of the research appropriation to fund 
university-based research and development centers and at least one-
fourth to fund field-initiated research (the statute does not permit 
the agency to specify even broad topic areas for field-initiated 
research--individual investigators choose both the topics and methods 
of study); and that not more than 10 percent of the total research 
appropriation (and not more than 33 percent of the share for any 
particular institute) be used to fund cross-cutting research. Cross-
cutting research is research that is germane to more than one institute 
and may be carried out jointly by two or more institutes, or by one or 
more institutes jointly with other offices in the Department or other 
agencies within the Federal Government.
    Each of the initiatives we have launched this year is cross-
cutting. Take our new program of research in reading comprehension as 
an example. Should this be the responsibility of the At-Risk Institute 
or the Achievement and Assessment Institute? And isn't it also an 
initiative of relevance to the Early Childhood Institute and the 
Postsecondary and Adult Learning Institute? It is difficult to assemble 
staff outside the Institute structure to focus on cross-cutting issues. 
And, most critically, we have only been able to move ahead with our new 
programs based on bill language in our appropriations statute that 
exempts the funds for new initiatives from the statutory requirements 
for apportioning funds under the institute structure. The appropriators 
have done this since our statute expired in 1999 based on the 
assumption that these funding strictures would be removed in 
reauthorization. I hope their assumption was correct, because it would 
be impossible to do the new work that needs to be done under current 
law.
    Centers. Another facet of this same problem lies in the current 
requirement that at least one-third of institute funding go to research 
and development centers located at universities around the Nation. 
Centers are the major mechanism by which OERI supported research prior 
to my arrival. Currently, there are 11 R&D centers. Several have been 
funded for over 15 years. Some of the centers have performed well and 
the center mechanism is one we intend to continue to use. However, 
centers have failed as the principal mechanism of supporting field-
based research. Why? First, an effective center needs to have 
scientists who work closely together and interact frequently with the 
goal of solving a particular problem or closely connected set of 
problems. Too many of our centers end up being mail drops that serve 
scholars scattered across the Nation.
    Center support is parceled out to these scientists for individual 
projects that are only loosely connected to each other, if connected at 
all, and the goal of the work--the point at which success could be 
declared--is undefined. In effect, such centers become intermediate 
funding agencies. We give them money, and then they give it to other 
people under conditions that are much less competitive, much less 
strategic, and involve much more overhead than would be the case if we 
skipped the center mechanism entirely and parceled out the money 
ourselves. Second, centers as the sole mechanism of support freeze out 
all those researchers who could be doing important work but aren't part 
of the club. In the recent history of Federal funding of education 
research, if you were not connected with a center you had scant 
prospects of continuous funding for a serious program of research. We 
need much more capacity in the education research community than we 
currently enjoy. To get there, we need to open up our funding process 
to all interested and competent parties, including those who are not a 
part of the existing education research community and center structure.

Creating a Culture of Science

    The recent National Research Council report on scientific research 
in education concluded that building a scientific culture within the 
Department's research agency is a prerequisite for all else. This is my 
view as well. It is very important to understand that successful 
research agencies, such as the NIH, embody a scientific culture because 
the people in the principal program management roles share the 
dispositions and training that characterize scientists. It is this 
shared culture, much more than statutes, rules, and regulations, that 
supports high-quality research. My experience in trying to increase the 
number of qualified scientists at OERI highlights the importance of our 
excepted service authority, which allows us to hire scientists for 
limited terms outside the regular civil service. OERI has had this 
authority for its entire existence, as do our sister research agencies. 
It is critical that it be continued so that we can rotate scientists 
through the agency for limited terms and under flexible conditions.
    Building a scientific culture at the Department's research agency 
also requires stability in leadership and the shared sense that the 
organization can pursue its agenda over the long-term.

Regulatory Burdens

    The Department of Education is required, by section 437 of the 
General Education Provisions Act, to take public comment on priorities 
for grant competitions before funding announcements can be published. 
This can add up to 6 months to the time necessary to make grants, and 
can push our grant-making into the final half to third of each fiscal 
year. The provision makes sense in Education for programs that deliver 
funding to State and local educational agencies where broad areas of 
the public may have an immediate stake in the funding program and be 
motivated to comment. However, our funding announcements are technical 
documents directed to scientists. The period for public comment 
required under rulemaking has historically generated very little in the 
way of comment. Letting us use the same exemption that the NSF and the 
NIH use would have no downside that I have identified, and would allow 
us to be much quicker on our feet in getting funding out the door.
    Another regulator burden is the possible application of the Federal 
Advisory Committee Act (FACA). Our Office of General Counsel has 
informally advised that OERI may be subject to FACA for the purposes of 
peer review if a panel that has fixed membership, meets regularly and 
advises me or the Secretary. Such a panel would have to be chartered as 
a Federal advisory committee. Because applications for funding for 
scientific projects often include proprietary and privileged 
information and because FACA requires open committee meetings, we do 
not want to charter our peer review panels as Federal advisory 
committees. As a result, historically OERI has not had standing peer 
review committees. Further, when peer review panels meet just once they 
cannot provide a summary judgment on the quality of applications. 
Standing review panels are an important tool in the competitive funding 
process in a science agency. It is critical that we be exempted from 
FACA for peer review committees.

Budget Flexibility

    We need more flexibility in authorization and appropriations. When 
there are separate authorizations for particular, narrow components of 
our work, there are two predictable consequences. The first is that we 
are not able to move quickly into a new area of activity that is 
important. The second is increased pressure to fund work of lower than 
desirable quality so that we do not have to lapse funds. It would be 
very helpful if legislation gave us the flexibility to direct funds 
among program areas in response to project quality and national needs.

Nonpartisanship

    The research activities within the Department have sometimes been 
seen by the outside community and Congress as more subject to political 
involvement than would be the case for research conducted by the NIH or 
the NSF. Regardless of the accuracy of that view, the perception that 
politics is driving research needs to be avoided if we expect the 
Department's research activities to have the force of scientific 
findings.
    There are a number of ways that legislation could increase the 
perception and reality of nonpartisanship of the research process. A 
consolidated budget would help because it would isolate the agency's 
budget for personnel and supplies from the core Department budget for 
those items. An agency staffed predominantly by scientists, who are 
committed by virtue of their training to the integrity of the research 
process, will contribute significantly to the goals of nonpartisanship 
and objectivity. Placing the responsibility for evaluation of Federal 
education programs in a center for evaluation within the agency will 
provide useful distance between the program evaluation and program 
management functions within the Department.
    Research, statistics, and evaluation activities need to be based on 
sound science and be independent of undue partisan influence. We look 
forward to working with the Committee toward legislation that supports 
that goal.

Separation of Research and Program Delivery Functions

    Our current statute, as well as previous administrative decisions, 
have led OERI to be responsible for a large number of nonresearch 
programs. These include a number of ESEA programs such as character 
education, a large number of earmarks through the Fund for the 
Improvement of Education (FIE), technology programs such as Star 
Schools, and the regional education labs. We believe it is critically 
important to separate the research agency from the responsibility of 
delivering educational programs and technical assistance. Over the 
years, those activities have been assigned to OERI in increasing 
numbers to the point that over two-thirds of our budget is devoted to 
nonresearch programs. The agency responsible for evaluating program 
effectiveness and upholding high standards of evidence cannot fulfill 
its role if it is directly delivering the very educational programs and 
technical assistance that it is supposed to evaluate. Further, the 
culture of science that is so important to establish within the agency 
is impeded when we need so many staff to engage in activities such as 
monitoring FIE earmarks that do not require scientific training. Also, 
far too much of my and my senior staffs time has to be spent in 
overseeing these nonresearch activities. We need a solid intellectual 
connection between scientific research and technical assistance, but in 
keeping With the recent National Research Council report on scientific 
research in education. We believe it is very important to keep these 
types of activity operationally distinct.

The Regional Educational Laboratories

    A very important instance of this general theme has to do with the 
role and function of the regional labs. I have spent considerable time 
over the last year getting to know the labs and their work. It is a 
mixed picture. Some of the labs do work that is considered quite 
valuable by their customers. Other labs are weaker in the quality and 
value of the work they conduct. So, one issue with the labs is this 
substantial variability in quality and relevance. A second issue is 
defining their core function. Is it applied research and development or 
is it technical assistance? Applied R&D in any field, including 
education, means the development of products that are intended to 
address needs and then doing research on their effectiveness until a 
final product is developed that successfully addresses the problem it 
was designed to solve. Some of the labs are actively involved in 
developing products and programs. Others develop few products. However, 
even for those labs that do a lot of product development, the research 
half of the R&D process usually gets short shrift. None of the lab 
products I have examined has gone through the cycle of development, 
research-based evaluation, and revision that constitutes the full R&D 
cycle. Instead, the products are developed and put into the field. 
Whether they work, or how well they work, is never assessed in a 
rigorous way. From my perspective, we do not need to use Federal funds 
to sponsor the development and dissemination of unproven educational 
materials and products. Education is plagued with that from the 
commercial and nonprofit sectors. We don't need to support the 
expansion of the large evidence-free zone that already exists in 
education through the regional lab structure.
    The labs have a unique and critical role to play in regional 
technical assistance. The No Child Left Behind Act imposes a new and 
challenging set of requirements on State and local educational 
agencies. States and schools need a lot of help in designing and 
implementing assessment and accountability systems, in training 
teachers in how to teach reading and math, in selecting curriculum and 
aligning it with State standards, in recruiting and retaining highly 
qualified staff, and so on. The Department has been engaged in a 
Herculean effort to help States and schools understand and implement 
the new law through a wide variety of meetings, workshops, printed 
materials, and web sites. However, the Department has few troops on the 
ground to provide the follow-up and local assistance that educational 
agencies will need when the unavoidable problems and questions arise. 
The labs represent a resource for that assistance that could be 
extremely valuable if focused and aligned with the implementation 
requirements of NCLB and other Federal programs, and if driven by the 
expressed needs of the State and local educational agencies within a 
region. The Department's research agency is not the organizational 
component that should be overseeing regional technical assistance, but 
it will be important to write legislation that takes advantage of the 
labs' presence and expertise in each region to provide technical 
assistance that meets local needs and that structures the labs 
functions so that the unevenness in the quality and relevance of their 
work is addressed.

Funding

    The entire research and statistics budget of OERI for fiscal year 
2002 is less than \1/2\ of 1 percent of the Department's discretionary 
budget. The core research and dissemination budget for 2002, leaving 
out statistics, is only $122 million. The education research agency 
needs adequate resources in order to support a sustained and cumulative 
research effort in its areas of responsibility. I am very pleased that 
the President is committed to investments in education research. 
Accordingly, he has proposed a 44 percent increase for fiscal year 2003 
in our core research budget and 12 percent in our statistics budget. 
This is an unprecedented increase. We need the support of Congress in 
making an appropriation consistent with the President's request so that 
we can move forward on the important work that needs to be done.
    In an effort as large, complex, and important as this, informed, 
well-intentioned individuals and groups will differ on details. Let us 
talk about those details and compromise on those that seem to represent 
different routes to the same goal. However, we cannot and should not 
compromise on the end points. We need an invigorated agency that is 
capable of carrying out a coordinated, focused agenda of high-quality 
research, statistics, and evaluation that is relevant to the 
educational challenges of the Nation, and that has sufficient 
flexibility to adjust to new opportunities and problems when they 
arise. This is a unique and unparalleled opportunity to begin a process 
that will make American education an evidence-based field. If we 
succeed in this task, historians may look back at our actions in the 
next weeks and months as building the foundation for a new era in 
learning and teaching, an era that propelled the U.S. into another 
century of preeminence.
    Thank you again for this opportunity to testify.

    Senator Reed. Now let me call up the second panel, please.
    Senator Clinton. May I have the courtesy, Senator Reed?
    Senator Reed. Absolutely, Senator Clinton.
    Senator Clinton. I have the pleasure to introduce Professor 
LaMar Miller, who is here today from New York University's 
Metropolitan Center for Urban Education, where he is the 
executive director of the Metro Center in the School of 
Education. Under his direction the Metro Center works to 
provide assistance and services to underserved populations, 
including children with disabilities, with other disadvantages 
such as--low income, and limited English proficiency.
    He is also the principal director of the New York Technical 
Assistance Center, one of the centers authorized by OERI, and 
he conducts and disseminates research in that capacity. He has 
authored and edited numerous publications and we are so 
delighted that he could be here with us because he has a wealth 
of experience and a real commitment to the underserved children 
who are often overlooked in a lot of what we are doing.
    So thank you, Senator, for letting me say a few words for 
the home team here.
    Senator Reed. Thank you very much, Senator Clinton.
    Now let me turn to Senator Frist, who would like to 
introduce our witness from Tennessee.
    Senator Frist. Thank you, Mr. Chairman.
    Mr. Chairman, I am proud to introduce the next witness on 
this panel from my home State of Tennessee, Commissioner of 
Education Faye Taylor. Commissioner Taylor has been on the very 
front lines of education, fighting for Tennessee's children for 
the past 30 years.
    She has served as a classroom teacher, a reading resource 
teacher, a Title I teacher, a principal, a supervisor, and the 
director of elementary education and curriculum development for 
the State Department of Education. She currently serves on the 
board for the University of Tennessee, the Tennessee Board of 
Regents, Accountability Works, Incorporated, Tennessee 
Tomorrow, and the State Workforce Development Board. She also 
serves as the secretary-treasurer for the Education Leaders 
Council, as co-chair of the Tennessee P-16 Council, and as a 
member of the Early Periodic Screening Diagnosis Treatment 
Commissioner's Task Force.
    Miss Taylor graduated with honors from Middle Tennessee 
State University and holds endorsements in both elementary and 
secondary education. She earned a masters and an education 
specialist degree in administration and supervision from Austin 
Peay State University and has completed course work toward a 
doctorate at Tennessee State University.
    Most recently, Miss Taylor has been working tirelessly to 
assure passage of charter school legislation within the 
Tennessee State legislature. Just last week the State Senate 
voted 30 to 1 in favor of charter school legislation. Largely 
due to her leadership, for the first time in 10 years, both 
State legislative chambers have approved a bill allowing 
charter schools.
    Commissioner Taylor, I want to personally thank you for 
taking time out of your extremely chaotic schedule to share 
your knowledge, your hands-on experience with the Senate 
Health, Education, Labor and Pension Committee. Your testimony 
will be greatly appreciated.
    Senator Reed. Thank you very much, Senator Frist.
    It is now my pleasure to introduce Dr. Michael Nettles. Dr. 
Nettles has been professor of Education at the University of 
Michigan since 1992 and is a prominent policy researcher on 
educational assessment, student performance and achievement, 
educational equity and higher education finance policy. Also a 
widely published researcher in education, he currently is the 
vice-chair of the National Assessment Governing Board and I am 
very interested to hear your testimony on the necessity for 
viable and reliable educational testing.
    Senator Reed. Thank you all for being here and Dr. Nettles, 
if you would please begin.

 STATEMENTS OF MICHAEL NETTLES, VICE-CHAIR, NATIONAL ASSISTANT 
  GOVERNING BOARD; LAMAR MILLER, DIRECTOR, THE COMPREHENSIVE 
CENTERS; AND FAYE TAYLOR, COMMISSIONER OF EDUCATION, TENNESSEE 
                    DEPARTMENT OF EDUCATION

    Mr. Nettles. Thank you very much, Senator Reed. I am really 
pleased and honored to be before the committee to testify on 
the reauthorization of NAEP and NAGB. I will not be addressing 
OERI generally except to the extent that it relates to NAEP.
    As you mentioned, Senator, I am vice-chair of the National 
Assessment Governing Board and a professor at the University of 
Michigan, father of three young daughters and I am personally 
and professionally interested in the quality of education in 
the country.
    I was originally appointed by Lamar Alexander when he was 
secretary of education to be on the National Assessment 
Governing Board and reappointed by Secretary Riley. I am a 
native Tennessean, as well, Senator Frist, and have my 
baccalaureate degree from the University of Tennessee, grew up 
in Nashville.
    No Child Left Behind is an important new act, new law for 
the country. Through the leadership of President Bush and the 
Congress, the No Child Left Behind makes education a really 
high domestic priority for our country. It has been observed 
that too few of our students read and write and compute well 
enough. Now we have a really clear goal that all children will 
achieve at high levels regardless of economic status, race, 
ethnicity, disability or limited English proficiency.
    Tracking the progress of children in the country is a 
really essential and important part of No Child Left Behind and 
NAEP, the National Assessment of Educational Progress, has been 
designated to serve in a prominent role in this new law. NAEP 
has been expanded as a consequence of No Child Left Behind. In 
2003 and every year thereafter every State must participate in 
the National Assessment of Educational Progress in grades four 
and eight in reading and mathematics as a condition for 
receiving Title I funding. The public confidence and trust and 
credibility and independence of the National Assessment of 
Educational Progress and its objectivity and independence has 
never been more important.
    The NAEP results are the only source of comparable State 
data for the 50 States. NAEP reports, the National Assessment 
of Education Progress reports, will receive greater scrutiny 
and attention as a consequence of this new role. The public 
confidence in No Child Left Behind is partly dependent upon its 
confidence in the objectivity of NAEP. Will the data be 
objective and who will be accountable to the public for the 
results of the assessments? Are there sufficient safeguards to 
resist political pressure to show improvements in the National 
Assessment of Educational Progress? These are critical 
questions that I think are before this committee as it moves 
forward in this reauthorization.
    The solution here, we think, is to renew and strengthen the 
independence of NAEP in the governance of the National 
Assessment of Educational Progress by transferring operational 
responsibility for the NAEP to the National Assessment 
Governing Board.
    NAEP has had a long history in the country, about 32 years, 
33 years now, and it has been through three distinctive 
periods. The first period was from 1969 to about 1988. During 
that period the NAEP was administered through a grant from the 
Department of Education through the National Center for 
Education Statistics, first to the education commission of the 
States and then to the Educational Testing Service.
    After a national commission that was headed by Lamar 
Alexander and distinguished educator James, Secretary Bennett 
recommended and this committee approved the establishment of 
the National Assessment Governing Board to set policy for NAEP. 
That has represented the second era and has been the last 14 
years. We view the No Child Left Behind bringing the national 
assessment into yet a third major critical era of expansion and 
we think that it calls for an alteration and change in the 
governance structure.
    NAEP is in a unique position because it has the greatest 
visibility among the assessment programs in the country and 
will be looked upon by the citizens of the country as a 
measurement against which State assessments will be gauged. We 
think that this calls for NAEP to have greater independence to 
establish its own credibility.
    This is not a new idea. This was first suggested in 1994 by 
the Congressional Research Service. It has also been written 
into several subcommittee laws that never have been passed but 
have been mentioned before.
    The board itself has distinguished composition. There are 
two governors on the board of NAGB. Governor Kempthorne and 
Governor Musgrove are on the board. There are two legislators. 
We sometimes think of it as the Noah's arc of governing boards. 
It has almost two of everything--superintendents and principals 
and distinguished teachers. We even have the most recent 
teacher of the year, Marlin Whirry, on our board.
    The current board is appointed by the secretary of 
education but beyond that, the board has great independence to 
operate. There is, however, a great deal of shared ambiguity 
between the policy-setting aspect of the board and the 
operations of the National Assessment. The National Assessment 
is administered by the National Center for Education Statistics 
and the policy board, NAGB, sets policy for it.
    Now there are no legislative requirements that NCES follow 
board policy and this very often relies upon the personalities 
that are in office to succeed in functioning. We have been 
quite successful but there have been times in which we have 
recognized that like any board of directors, the National 
Assessment Governing Board has needed to have responsibility 
and authority for the CEO.
    Senator, we think that the assistant secretary has made a 
very important point in distinguishing between research and the 
operations as a critical point and we view the National 
Assessment of Educational Progress as an operational activity, 
not a research activity. We need to have independence to be 
able to rely upon the best research, whether it is conducted 
and funded by the Department of Education or conducted and 
funded independently, and that is another reason why we think 
that this should happen.
    I am not going to address the specific aspects of the House 
bill. I would be happy to entertain questions about it in the 
conversation that we may have afterwards. I will just conclude 
with the central point; that is that we believe that the new 
demands on the National Assessment of Educational Progress 
requires that it have greater independence and we would like to 
suggest that probably the best way for that to happen is for 
you to transfer the operational responsibilities for the 
National Assessment to the National Assessment Governing Board. 
Thank you.
    Senator Reed. Thank you very much, Dr. Nettles.
    [The prepared statement of Mr. Nettles follows:]

                 Prepared Statement of Michael Nettles

    Good morning, Mr. Chairman and Members of the Committee. I am 
pleased to be testifying before you today on the reauthorization of the 
National Assessment of Educational Progress (NAEP) and the National 
Assessment Governing Board.
    My name is Michael Nettles. I am Vice-Chairman of the National 
Assessment Governing Board and a professor of education at the 
University of Michigan. As the father of three young daughters, I have 
a personal interest in the quality of education.
    This is a critical time for our Nation's schools. Too few of our 
students read, write, and compute well enough. Through the leadership 
of the President and Congress in enacting the No Child Left Behind Act, 
education was made our highest domestic priority.
    There is widespread commitment to reach the vision of No Child Left 
Behind--all children achieving at high levels of proficiency regardless 
of economic status, race, ethnicity, disability, or limited English 
proficiency. And there is consensus that we must regularly track our 
progress toward this essential goal.
    The need for valid, reliable, credible information on student 
achievement has never been greater than it is today. The No Child Left 
Behind Act calls on the National Assessment to fulfill this need in a 
new and expanded manner. For thirty-3 years, the National Assessment 
has monitored national student achievement at grades 4, 8, and 12 (and 
ages 9, 13, and 17) in key subjects, including reading, writing, 
mathematics, and science. On a voluntary basis beginning in 1990, NAEP 
allowed States to receive their own results. Under No Child Left 
Behind, starting in 2003, States must participate in NAEP reading and 
mathematics assessments in grades 4 and 8 every other year as a 
condition of receiving Title I funds. Now, not some States, but every 
State will be participating in the National Assessment.
    As the only source of student achievement data that can be compared 
across States, National Assessment results undoubtedly will receive 
much attention when its reports are released to the American public. 
However, greater attention to National Assessment results brings with 
it ever higher expectations for public credibility.
    As recent experience of the States has shown, loss of public 
confidence in the tests used to measure results is one of the greatest 
threats to achieving higher standards for all students. If fault is 
found with the tests, the public loses faith in the schools' ability to 
achieve the standards. Clearly, public confidence in No Child Left 
Behind will be partially dependent upon the public's trust in the 
National Assessment.
    NAEP results will be subject to intense scrutiny when the reading 
and mathematics data under No Child Left Behind are released beginning 
in 2003. This is because they will serve as a point of comparison with 
the States' performance on their own tests. Will the data be pure and 
apolitical or will they be fudged? Are the safeguards currently in 
place for NAEP's integrity sufficient to resist intense pressure to 
show ``improved'' achievement? Public credibility of the NAEP results 
will be inextricably tied to the perception that NAEP is independent, 
free of external manipulation or political entanglements. Now is the 
time to renew and strengthen the independence of NAEP and its 
governance.
    My testimony today is limited specifically to NAEP and the 
Governing Board. I will not be addressing broader issues related to the 
structure or functions of the Office of Educational Research and 
Improvement, except to the extent that they may affect the National 
Assessment.
    After providing some background about the National Assessment and 
its increasingly complex and consequential role, my testimony will 
address the following themes:
    <bullet> The impact of No Child Left Behind on the National 
Assessment
    <bullet> The importance of NAEP's independence
    <bullet> The implications for legislation

Background

    Mr. Chairman, since 1969, the National Assessment of Educational 
Progress, sometimes referred to as NAEP or the Nation's Report Card, 
has been our only continuing source of national information on U.S. 
student achievement at the elementary and secondary levels. The 
National Assessment is widely praised for its quality and noted for its 
integrity.
    In 1988, with your leadership, the participation then of Committee 
Members Senator Dodd, Senator Mikulski, and then Representative 
Jeffords, widespread bipartisan support, and the support of the Reagan 
Administration, the National Assessment was expanded to allow for the 
reporting--for the first time in NAEP's history--of State level 
results. With the encouragement of the Department of Education, headed 
by Secretary William Bennett, Congress established the National 
Assessment Governing Board, a citizen body independent of the 
Department of Education, to oversee and set policy for NAEP.
    Your bill to expand and restructure the National Assessment, S. 
1700, was introduced on September 17, 1987, only 9 months after the 
release of the recommendations of the Study Group on the Nation's 
Report Card. The twenty-two member Study Group was commissioned by 
Secretary Bennett, chaired by Governor Lamar Alexander, co-chaired by 
distinguished educator Thomas James, and included Senator Clinton, then 
First Lady of Arkansas. Mr. Chairman, your bill became a part of the 
Hawkins-Stafford Act, approved almost unanimously in both chambers, and 
signed by President Reagan on April 28, 1988. Clearly, the changes to 
the National Assessment were made on a bipartisan basis and bipartisan 
consensus continues to be a hallmark of the National Assessment.
    The Study Group recommendations for the National Assessment 
followed the release of ``A Nation at Risk,'' the report that called 
for high standards and accountability in education on the one hand, 
while frustrated State policymakers on the other, were faced with the 
paucity of information and lack of comparability of student achievement 
data across States. In recommending a sea change in the National 
Assessment--the conduct of regular State assessments--the Study Group 
was keenly aware of the desire for such information on the part of 
governors and chief State school officers and foresaw the importance of 
the independence of the National Assessment and its governance as a 
consequence of this expansion of NAEP's role.
    ``The governance and policy direction of the national assessment 
should be furnished by a broadly representative [body] that provides 
wisdom, stability, and continuity; that is charged with meshing the 
assessment needs of States and localities with those of the nation; 
that is accountable to the public--and to the Federal Government--for 
stewardship of this important activity; but that is itself buffered 
from manipulation by any individual, level of government, or special 
interest within the field of education.'' (The Nation's Report Card, 
page 8.)
    Mr. Chairman, the independence of the National Assessment was 
important in 1988. It is doubly important now, with the passage of the 
No Child Left Behind Act of 2001. Recent painful experience in the 
business world reminds us how important true independence is for the 
integrity of an audit-like function. Whether reporting profits to share 
holders or a portrait of student achievement to the public, data will 
be trusted if perceived as independently produced, free of conflicting 
interests, and safeguarded from manipulation. No Child Left Behind 
requires all States to participate in the National Assessment every 2 
years, beginning in 2003. It is essential that NAEP be valid, reliable, 
and credible, in reality and in public perception. I will return to the 
connection between public credibility and an independent National 
Assessment later in my testimony.

NAEP's Usefulness

    I am a long-time fan of the National Assessment. The late Albert 
Shanker called it a treasure for our Nation. He was correct. The 
National Assessment is our only continuing source of credible student 
achievement information at the national level and one of the most 
important sources for State leaders on the educational outcomes from 
the collective $400 billion annual investment in student learning.
    NAEP was once little known except to a small number of educational 
researchers. Today, National Assessment data are widely used by 
national and State policymakers. Although NAEP uses the best research 
about testing, the National Assessment itself is not a research 
activity. NAEP is a fully operational assessment program, with a 
schedule of assessments set through the year 2012 and periodic reports 
to the American public on what our students know and can do in a range 
of important subjects.
    National Assessment results are regularly front-page news. National 
Assessment results are frequently quoted by Members of Congress. Forty 
States or more, on a voluntary basis, have been using the National 
Assessment to track their progress over time, to validate their own 
State test results, to examine their academic standards, and to compare 
their performance with other States.
    State-by-state comparisons can be done using the National 
Assessment that cannot be done with any other test or source of 
information. State tests are not comparable because the content of 
State tests, the grades tested, and the test administration procedures 
are as varied as the States themselves. Thus, State test results cannot 
be ``added up'' to get a national result. Other well-established tests, 
such as those used for college admissions, cannot provide state-by-
state or nationally representative results because they are taken by a 
nonrandom subset of the population, not by a scientifically drawn 
sample that validly represents the Nation or a particular State. On the 
other hand, NAEP's samples are nationally and State-representative.
    Others use National Assessment data, too. The National Assessment 
figured prominently in the annual reports of the National Education 
Goals Panel. Education Week relies heavily on the National Assessment 
in its annual publication ``Education Counts.'' Governors, State 
legislators, and chief State school officers depend on and want more 
National Assessment State-level results.
    Not just NAEP data, but other products and services are widely used 
by teachers, curriculum specialists, parents, administrators and the 
public. The Governing Board has distributed, upon request, thousands of 
copies of NAEP test frameworks--the test blueprint that describes the 
content and construction of the assessment for each subject. Hundreds 
of test questions have been released to the public and can be 
downloaded from the NAEP website. There even is an easy to use tool 
that permits the public to analyze NAEP data online. NAEP data, 
products, and services are easily accessible to those who wish to use 
them, and many do.

NAEP's Integrity and Independence

    The National Assessment is in demand because it occupies a unique 
place among the many varied testing programs in the U.S. It is the only 
source of state-comparable results. Its data are trusted. Its policy 
setting and operations are conducted in the sunlight. Its credibility 
and integrity have been established the old-fashioned way. They have 
been earned over three decades.
    Unique position, trust, credibility, integrity--these positive 
attributes make the National Assessment attractive for monitoring 
education achievement. Undoubtedly, these attributes of the National 
Assessment figured prominently in the major role assigned it by the No 
Child Left Behind Act.
    However, with the National Assessment's heightened visibility will 
come new pressures and challenges. The issue is that the more important 
the results, the greater the political attention to NAEP and, 
consequently, the greater the need to provide a buffer from ``political 
spin'' and partisan politics. Although this may sound ``academic'' or 
theoretical now, it will become very real in 2003 and 2005 when the 
first rounds of National Assessment State results are released. It is 
difficult to overstate for the coming decade the importance of this 
valid, reliable, credible measure for educational improvement. This 
demands a National Assessment that is independent and unfettered by 
entanglements with partisan politics or special interests. A way to 
achieve this independence is to assign operational responsibility for 
the NAEP program to the citizen Board that now oversees and sets policy 
for it--the National Assessment Governing Board.
    Later in my testimony, I will describe NAEP-related roles and 
responsibilities in more detail. For now, I will just explain it as a 
bifurcated arrangement in which the Governing Board sets policy for 
NAEP and the Commissioner and staff of the National Center for 
Education Statistics administer the NAEP program operations. 
Administering program operations includes overseeing contractors who 
prepare test booklets, administer the tests, analyze the data, and 
draft the reports.
    Assigning NAEP's program operations to the Governing Board 
increases the independence of the National Assessment by removing it 
several steps from political control and putting it in the hands of 
citizen policymakers. The idea of turning NAEP operations over to the 
Governing Board was first advanced in a Congressional Research Service 
report on NAEP reauthorization. Assigning the Governing Board the role 
of administering the National Assessment was also a prominent part of a 
bill from the last Congress, H.R. 4875, passed unanimously by the House 
Early Childhood, Youth and Families Subcommittee. And the Governing 
Board does have operational experience in a number of areas critical to 
the conduct of the National Assessment: selecting the subjects to 
assess, deciding on the content and methodology of the assessment, 
approving all test questions, and setting the standards for reporting 
results.
    The Governing Board, by its very composition, advances the 
credibility of the assessment, with its strong emphasis on State and 
local perspectives and mix of policymakers, educators, test experts and 
parents: two governors and two State legislators on a bipartisan basis, 
two chief State school officers, a State and a local board of education 
member, a school district superintendent, a private school 
administrator, three teachers, two principals, two parents, a 
representative of business, two members of the public, and test and 
curriculum specialists.
    Highly distinguished individuals serve on the Governing Board. They 
include: Melanie Campbell, Fourth-grade Teacher, Topeka Kansas; Dr. 
Wilmer Cody, Former Kentucky Commissioner of Education; Dr. Daniel 
Domenech, Superintendent of Schools, Fairfax County, Virginia; Edward 
Donley, former Chairman, Air Products & Chemicals, Inc., Allentown 
Pennsylvania; Dr. Thomas Fisher, Director of Student Testing, State of 
Florida; Dr. Edward Haertel, Professor, School of Education, Stanford 
University: Juanita Haugen, School Board Member, Pleasanton, 
California; Hon. Dirk Kempthorne, Governor of Idaho: Hon. Nancy Kopp, 
former Maryland State Legislator (now State Treasurer): Hon. Ronnie 
Musgrove, Governor of Mississippi: Mark Musick, Governing Board Chair 
and President, Southern Regional Education Board; Roy Nageak, Sr., 
Member, Alaska State Board of Education; Dr. Michael Nettles. Governing 
Board Vice Chair and Professor of Education, University of Michigan: 
Debra Paulson, Eighth-grade Mathematics Teacher, El Paso, Texas; Hon. 
Jo Ann Pottorff, Kansas State Legislator; Dr. Diane Ravitch, Research 
Professor, New York University; Sister Lourdes Sheehan, R.S.M., 
Secretary for Education, U.S. Catholic Conference; John Stevens, 
Executive Director, Texas Business and Education Coalition; Migdania 
Vega, Principal, Miami, Florida; Dr. Deborah Voltz, Professor of 
Special Education, University of Louisville: Dr. Michael Ward, North 
Carolina Superintendent of Public Instruction; Marilyn Whirry, 2000 
Teacher of the Year; Dr. Dennie Palmer Wolf, Director, Annenberg 
Institute, Brown University.
    The Governing Board's members are exceptionally well qualified to 
achieve the delicate balance needed for its mission of ``meshing the 
assessment needs of States and localities with those of the Nation.''

Roles and Responsibilities

    The 1988 expansion of NAEP necessitated the creation of the 
Governing Board. While the Board has steadfast carried out its duties 
faithfully and effectively, the experience of fourteen years has 
surfaced a problem in the respective roles and responsibilities of the 
Department's National Center for Education Statistics (NCES) and the 
Governing Board. Board Chair Mark Musick, in testimony on May 11, 2000 
before the Early Childhood, Youth, and Families Subcommittee, referred 
to the problem as ``shared ambiguity'' in roles and responsibilities. 
Let me explain what we mean by ``shared ambiguity'' and how it can be a 
problem for the independence of the National Assessment and, 
consequently, for No Child Left Behind.
    Under current law, the Governing Board is responsible for setting 
policy for the National Assessment. But the Board does not administer 
NAEP. That is done by NCES. However, organizationally speaking, there 
is not a line relationship between NCES and the Board. NCES is a part 
of OERI, and reports to the Secretary through the Department's 
Assistant Secretary for Research and Improvement. Without a line 
relationship, or a legislative requirement, NCES is not obliged to 
follow Governing Board policy in conducting NAEP.
    It is important to remember, too, that the NCES Commissioner 
administers many program areas other than NAEP, for which the Board has 
no role, including higher education, international education, 
longitudinal studies in elementary and secondary education, and the 
annual ``Condition of Education'' report. Thus, the governance of NAEP 
is a special case within NCES, the only one for which an external Board 
sets policy. Where the conduct of the NAEP program is concerned, NCES 
has several ``masters,'' which is unsound and unwise. More to the 
point, it is not good for the NAEP program.
    Although the NAEP legislation requires the Commissioner to report 
to the Board on implementation by NCES of the Board's decisions, the 
legislation does not specifically require the Commissioner to follow 
those decisions. The relationship between NCES and NAGB is akin to a 
local Board of Education that sets policy for a school district but has 
no authority over the Superintendent, or a corporate Board of Directors 
to whom the CEO has no direct accountability.
    So you can see why I call this ``shared ambiguity.'' Some think of 
the NAEP governance structure as a set of checks and balances, which 
was appropriate in 1988, when NAEP's expansion to State level reporting 
was experimental and the newly created independent citizens' Board was 
untried. But State level reporting is a clear success and the Governing 
Board has fourteen productive years behind it. What seemed appropriate 
as a system of checks and balances given the circumstances in 1988 
should not be permitted to become a recipe for paralysis in 2002. The 
expectation in school administration and the world of business, and 
virtually all effective organizations, is for clear lines of authority 
and accountability between policy setting and policy execution. 
Congress should set no lower expectation for the governance and conduct 
of the National Assessment. This is especially true given the role of 
NAEP under No Child Left Behind.
    Although ``shared ambiguity'' has been made to work, it is due 
solely to the personal characteristics of the individuals involved, not 
to the logic of the organizational relationships. But the integrity of 
the National Assessment and the trust of the public are too precious to 
leave up to good will, personalities, and, in a word, chance. The NAEP 
legislation should ensure that the policy setting, operations, and 
reporting of the National Assessment are insulated from partisan 
politics and special interests. It should provide for NAEP policy, 
operations, and reporting together under the Governing Board--still 
independent of, but attached to the Department of Education, with Board 
members appointed by the Secretary--rather than under two separate 
organizations.

No Child Left Behind Implementation

    The No Child Left Behind Act was signed into law on January 8, 
2002. The Act amends the National Assessment and assigns new duties to 
the Governing Board. The Governing Board has acted with dispatch to 
carry out the law. Our Chairman, Mark Musick, has sent letters 
describing the Board's plans and decisions to implement the Act to each 
Member of the Senate HELP Committee and the House Education and the 
Workforce Committee (following enactment on January 16, 2002, following 
the March Board meeting on March 14, and following the May Board 
meeting on June 6). The three letters include policy statements adopted 
by the Board and describe the Board's actions to:
    <bullet> Change the design and methodology of the assessment to 
provide for reporting within 6 months of the completion of testing.
    <bullet> Amend the schedule of assessments to provide for biennial 
assessments in 4th and 8th grade reading and mathematics and to realign 
the timing of assessments in other subjects in accordance with 
legislative priorities.
    <bullet> Adopt new Board policies pursuant to legislative changes 
under the No Child Left Behind Act of 2001: (1) Public access to NAEP 
questions; (2) A process for submitting complaints to the Governing 
Board; (3) NAEP test framework development; (4) NAEP test question 
development and review; (5) Collection and reporting of NAEP background 
information; (6) The NAEP long-term trend assessments; (7) Preventing 
the use of NAEP to influence State and local standards, tests, and 
curricula.
    Following the Governing Board's next meeting in August, we will 
again provide a written update on our activities related to No Child 
Left Behind.

H.R. 3801

    The House bill on OERI reauthorization, H.R. 3801, is comprehensive 
in scope, creating an Academy of Education Sciences that adds 
statistics gathering and evaluation functions to those currently 
included in the OERI authorizing statute. It is beyond the Board's 
purview to address the bill's provisions generally. However, we do 
believe that certain provisions in H.R. 3801 could exacerbate the 
ambiguity of authority over NAEP that exists, rather than lessen it.
    H.R. 3801 establishes an Academy of Education Sciences, headed by 
an Academy Director and a new policy and governing board, mandated to 
set policy for the entire Academy. The National Assessment and the 
Governing Board are established outside the Academy, under a separate 
title of the bill. However, as is the case now, the bill provides that 
NAEP shall be administered by the Commissioner of Education Statistics. 
The Commissioner and all of the activities conducted in the statistics 
center of the Academy would be subject to the supervision of the 
Academy Director and the policies of the Academy Board. H.R. 3801 also 
amends NAEP itself, transferring authority from the Commissioner to the 
Academy Director for awarding NAEP contracts. In addition, the duties 
of the Academy Director overlap with the duties of the Governing Board 
in several key areas including: assessment methodology, technical 
review, and reporting.
    Because explicit exceptions for NAEP are absent from the bill, H.R. 
3801 increases the potential for conflict with the Governing Board over 
authority over NAEP. For example, and most importantly, H.R. 3801 does 
not specify that, where NAEP is concerned, the Commissioner is to 
follow the guidance of and defer to the decisions of the Governing 
Board. Without such a requirement, NAEP operations could be ``held 
hostage'' should there be a disagreement between the Academy and the 
Governing Board. This could result in delays in operations, untimely 
reporting, and a loss of credibility.
    Another area of potential conflict is in reporting procedures. 
NAEP's public credibility is rooted in its independence in reporting 
student achievement results. H.R. 3801 gives the Academy Director 
authority for the release of all reports prepared within the Academy, 
and there is no explicit exception for how the release of NAEP data is 
to be handled. At the same time, the NAEP legislation (both current and 
as specified in H.R. 3801) requires the Governing Board to ``develop 
guidelines for reporting and disseminating results.'' Under this latter 
provision, no NAEP report is released without Governing Board review of 
the report and without approval in advance of a release plan submitted 
to the Board by NCES, practices that have been in effect for almost 
fourteen years. Again, without an explicit exception for NAEP and 
clearer lines of authority, disagreements could arise that would 
jeopardize the timely release of NAEP results.
    H.R. 3801 provides that the Secretary will receive an advance copy 
of all reports 30 days prior to release. Again, there is no exception 
for NAEP. We suggest instead that, not just the Secretary, but also the 
Chair and ranking minority members of the Senate and House authorizing 
committees, should be sent advance copies of NAEP reports after the 
contents have been reviewed and finalized, presumably by the Governing 
Board. However, the advance period should be significantly shorter than 
30 days, perhaps a few days to a week. This is for two reasons. First, 
a shorter advance period enhances the public perception of independence 
of the data and freedom from manipulation. Second, a shorter advance 
period also shortens report production time, so that data can be 
released to the public more promptly.
    We believe that H.R. 3801 in its current form increases the 
ambiguity and uncertainty about the governance and conduct of the 
National Assessment. It thus jeopardizes the National Assessment's 
integrity and credibility at the very time when these should be 
strengthened. The success of No Child Left Behind depends to a large 
extent on public trust in the information it receives about student 
achievement. Uncertainty can breed mistrust and this is no time for any 
erosion of confidence in the National Assessment. Whether the problem 
is defined as ``shared ambiguity'' or ``having too many cooks.'' it is 
very important that the issues we have identified be resolved in final 
authorizing legislation.

Summary and Conclusion

    Mr. Chairman, thank you for this opportunity to testify before the 
Committee on this timely and important subject. Just as ``A Nation at 
Risk'' served in 1983 as a stake in the ground to prompt almost two 
decades of significant education reform efforts in the States across 
our Nation, so will ``No Child Left Behind'' serve as a second stake, 
prompting a greater focus on standards, redoubling efforts to produce 
results, and relying more heavily on systematic student achievement 
data to mark our progress.
    And just as the need for quality, credible information in the 
1980's led to NAEP's expansion to provide State level results and to 
the establishment of a revised governance structure, so do the demands 
of the coming decade, with a further expansion of NAEP State results, 
suggest a need for further revisions to NAEP governance.
    It is likely that there will be great attention paid when NAEP 
reading and mathematics results are released in 2003 and every 2 years 
thereafter. It is essential, therefore, that the National Assessment go 
forward on firm footing. In reauthorizing the National Assessment, our 
Nation's report card, primary attention should be given to making it 
more independent, ensuring that it is buffered from partisan political 
influence, and clarifying roles and responsibilities in its governance 
by transferring authority for NAEP operations and reporting to the 
National Assessment Governing Board. Sound ``constitutional'' 
arrangements will ensure the independence of the National Assessment 
and its credibility to the public in supplying crucial information on 
the achievement of students in our schools.

    Senator Reed. Before I recognize Dr. Miller let me request 
that the record remain open until the end of the day to allow 
members to submit statements and questions and without 
objection, that will be ordered.
    Dr. Miller?
    Mr. Miller. Thank you. I wanted to publicly thank Senator 
Clinton for that kind introduction.
    Mr. Chairman and other members of the committee, I am 
pleased to have this opportunity to share with you my views 
regarding the important role that technical assistance can play 
in implementing the No Child Left Behind Act.
    I represent the Metro Center, which is one of the 15 
Comprehensive Regional Assistance Centers that provide 
technical assistance to States, school districts, schools and 
other educational entities. Our specific service area is in the 
State of New York.
    Congress created the Comprehensive Centers in 1994 to 
provide technical assistance services for implementing school 
reform strategies primarily in low-performing, high poverty 
area schools. Therefore I want to define what I mean by 
technical assistance. I mean the use of knowledge generated by 
scientifically based research to improve the adoption and 
implementation of educational practices targeted toward 
students. This definition suggests that legislation needs to 
focus on the translation of research into practice as strongly 
as it focuses on the understanding and meaning of 
scientifically based research and what works. In other words, 
research has to find its way all the way to the classroom. 
Technical assistance is important because it is the key to 
long-term continuous change for the expressed purpose of 
implementing priorities in Federal legislation.
    The Comprehensive Centers established in 1994 have been 
involved in five key types of services. First is direct 
assistance in designing and improving instructional programs in 
high poverty schools. Second, training and professional 
development activities for teachers and administrators. Third, 
information dissemination on current research and best 
practices in forms that are useful to school staff. Fourth, 
collaboration services in linking schools with each other and 
the community, forging strategic partnerships, helping 
educators build networks for support and continuous learning. 
And finally, advice and consultation and the implementation of 
relevant policies, particularly in the very complicated No 
Child Left Behind Act.
    But this morning I want to talk quickly with you about 
three topics: one, how the Comprehensive Regional Assistance 
Centers are making a real positive difference in the classroom; 
second, to describe six basic ways that Congress can strengthen 
the technical assistance system in order to help improve the 
academic performance of all children; and third, I want to tell 
you why the centers are unique positioned to help implement the 
No Child Left Behind Act.
    First of all, the Comprehensive Centers are already 
benefitting children, teachers and families in communities 
across the country. For example, in New York City we have a 
technical assistance program with 47 of the lowest-performing 
schools in collaboration with the New York City Board of 
Education, which we have now been doing for the last 3 years. 
This profile of success speaks well for the expert services 
that centers can bring to bear in helping low-performing, high 
poverty students succeed.
    I believe we can benefit more students in more communities 
by strengthening the technical assistance infrastructure and I 
have six recommendations for how this can be done in the 
reauthorization of the Federal education research programs.
    Recommendation number one: strengthen and expand the 
overall system of knowledge utilization currently supported and 
administered by the Department of Education. Our technical 
assistance program is part of a larger knowledge utilization 
system that includes research, development, dissemination, 
professional development. To improve technical assistance the 
larger system also needs to be improved.
    Recommendation number two: sustain the basic technical 
assistance infrastructure of the Comprehensive Centers. The 
centers have already established a specialized capacity for 
providing high quality research-based technical assistance. To 
ensure that No Child Left Behind Act is effectively and 
efficiently implemented, the Comprehensive Centers 
infrastructure should be maintained while making a number of 
refinements and enhancements. This will also enhance efforts 
already under way in the Department of Education and make sure 
the priorities actually get to the classroom.
    The third recommendation: increase the investment in 
Comprehensive Centers to address greater demand. In response to 
the strong accountability provisions in the No Child Left 
Behind Act, it is anticipated that States, districts, tribes, 
and schools will have a significant increase in the demand for 
technical assistance to help them turn around low-performing 
schools. And in fact, it is estimated that this year alone 
there are 5,000 to 7,000 more schools that are going to be 
identified as low-performing schools.
    Recommendation number four: align the Comprehensive 
Centers' mission with the No Child Left Behind Act. The 
Comprehensive Centers should be utilized to implement 
effectively the reform initiatives specified in the act.
    And number five: establish core services for the 
Comprehensive Centers. In other words, one of those core 
services should be to specifically work with those identified 
low-performing schools that are on the increase.
    And the final recommendation is to build the improved 
technical assistance systems on the data, on the data that 
comes from geographic and demographic factors. We must take 
into consideration demographics, included but not limited to 
the total number of students in a region or State, numbers of 
limited English-proficient students, numbers of Title I 
students, and those on free and reduced lunch.
    States, districts, tribes, other grantees do not currently 
have the capacity to implement a number of the key provisions 
of the No Child Left Behind Act, particularly in such areas as 
accountability, assessments, flexibility, teacher quality, and 
low-performing schools. The Comprehensive Centers have the 
experience and the expertise to help the U.S. Department of 
Education effectively implement the new law in every State 
throughout the country.
    Candidly, I do not know if there is any other system that 
is as uniquely qualified as the Comprehensive Centers are. We 
are very proud of our service to the Nation's children and 
schools and I hope that with the continuing interest and 
support of Congress, the Comprehensive Regional Assistance 
Centers can continue working to ensure that no child is left 
behind.
    Senator Frist. [presiding]. Thank you, Dr. Miller.
    [The prepared statement of Mr. Miller follows:]

                 Prepared Statement of LaMar P. Miller

    Mr. Chairman and Members of the Committee, I am LaMar P. Miller, 
Professor of Education and Executive Director of the Metropolitan 
Center for Urban Education at New York University. I am pleased to have 
this opportunity to share with you my views regarding the important 
role of Technical Assistance (TA) to support the new legislation of No 
Child Left Behind (NCLB).
    At the Metro Center we operate one of the 15 Comprehensive Centers 
located across the country that provide TA to States, school districts, 
schools, tribes and other educational entities. Our specific service 
area is the State of New York. As part of this network of Centers we 
have had the opportunity to observe first hand, both the strengths and 
pitfalls of Technical Assistance.
    My interest is in commenting on how TA can be strengthened in the 
legislation. I should like to cover four important points. First is the 
definition of TA. Second is why TA is important. Third are special 
challenges that TA providers face. And finally, what I believe is 
needed to strengthen the system.

Definition

    A working definition of TA might be stated as follows: TA is a 
means of using knowledge generated by scientifically based research to 
improve the adoption and implementation of educational practices that 
are targeted toward students.
    This definition suggests that the legislation needs to focus on the 
transition of research into practice as strongly as it focuses on the 
understanding and meaning of scientifically based research and what 
works. More importantly, when Federal funds are provided to support 
Federal priorities, there must be a network of federally monitored TA 
providers to ensure that the messages of the Federal Government are 
faithfully transmitted all the way to the classroom.
    We need to keep one guiding principal in mind, the major goal is 
capacity building. TA should happen with people and for people but 
never to people. An effective system of TA can do this by emphasizing 
needs analysis, solidifying and nurturing relationships, and involving 
clients in the planning, implementation and evaluation of TA efforts.
    What kind of services do the CCs provide?
    Direct assistance in designing and improving instructional programs 
in high-poverty schools;
    <bullet> Training and staff development activities for teachers and 
administrators;
    <bullet> Information dissemination on current research and best 
practices in forms that are useful to school staff.
    <bullet> Collaboration services in linking schools with each other 
and the community, forging strategic partnerships, helping educators 
build networks for support and continuous learning.
    <bullet> Advice and consultations in implementing relevant policies 
and developing strategies to optimize the use of resources.
    Some key examples of technical assistance currently offered by 
comprehensive centers include:
    <bullet> A think tank collaborative that has brought together 
representatives from the New York State Education Department, The New 
York City Board of Education, The New York Teacher Center, The Regional 
Lab, and The States Regional Schools Support Center to coordinate CSRD 
and related services.
    <bullet> TA to empowered networks of low performing schools to 
address specific issues such as math, and reading by providing 
sustained professional development.
    A network of centers that address the issues of migrant education 
by focusing on English language learners and by offering a series of 
ongoing workshops and opportunities for teachers of migrant children.
    What is special and unique about the CCs work that others don't do?
    The CCs have a uniquely focused expertise in:
    <bullet> Implementing the programs authorized in NCLBA
    <bullet> Serving the specialized populations identified in NCLBA 
programs
    <bullet> Serving the specialized populations identified in NCLBA 
programs
    <bullet> Providing ``one stop shopping'' services for technical 
assistance.
    Developing and implementing researched based strategies for turning 
around low performing high poverty schools.

The Importance of Technical Assistance

    Technical Assistance is important because it is the key to long-
term continuous change for the express purpose of implementing 
priorities stated in Federal legislation. A monitored system of TA 
providers allows the States and districts to be both a client and a 
partner while the provider can be both proactive and reactive. In this 
way, States and districts can truly build capacity while adjusting to 
local needs and at the same time, share in the knowledge of the 
provider who is supported by the Federal Government.
    There are other reasons why TA is important. First of all, in 
response to the strong accountability provision in NCLBA, it is 
anticipated that States, districts, tribes and schools will have a 
significant increase in the number of low performing schools. States, 
districts, schools, tribes and other grantees do not currently have the 
capacity to implement a number of the key provisions of the NCLBA, 
particularly in areas relating to accountability, assessments, 
flexibility and teacher quality. In fact, States are currently 
struggling with the choice provision in the law and provisions for 
supplemental educational services. Subsequently, the demand for TA has 
already increased. Hence, there is an urgency to strengthen and expand 
the current system of TA providers.
    Second, many State Education Departments and large urban school 
district offices have staff trained and experienced in monitoring for 
program/fiscal compliance--but not for delivering technical assistance 
on research-based practices or strategies. As a result, the 
proliferation of programs and initiatives intended to improve districts 
and schools is often overwhelming but ineffective. Rather than 
promoting school-wide improvement it discourages it by producing the 
impression that each initiative is an independent program (silo effect) 
rather than part of a comprehensive whole.
    Providing services to State Education Agencies (SEAs) is often 
affected by the changes in the State's political climate. Schools and 
school districts are not always truly aware of what their needs are. 
Comprehensive needs assessments, with input from all stakeholders, are 
frequently lacking. A prioritization of needs, with teachers involved 
in the decision making process, is also frequently lacking.
    Third, teachers in low performing schools are generally new and 
bring with them limited experience in teaching at-risk populations 
which can lead to limited teacher efficacy. Often TA is in the form of 
a one or two-day workshop that introduces new ideas but leaves teachers 
on their own to implement new methods and other innovations. They have 
had relatively little opportunity for professional development that is 
continuous, needs based and integrated into their daily routine. 
Teaching, especially under the demands and rigueur of scientifically 
based research curricula and new requirements to meet State standards, 
is a complicated task. Therefore, teachers are generally accepting of 
technical assistance when it is on going, comprehensive and 
collaborative in nature.
    Finally, the quality of some assessment practices and the programs 
promoted as quality research-based solutions are often flawed. 
Technical assistance is needed to help practitioners be more astute 
consumers of assessment information and claims of ``proven effective, 
packaged solutions,'' so resources and energy are not squandered.
    In summary, technical assistance needs to be focused, intense and 
sustained on critical issues for a sufficient time for the client to 
acquire and internalize the knowledge and skills necessary, to become 
self-sufficient.

Special Challenges That Technical Assistance Providers Face

    Technical assistance must address the greater challenges faced by 
children in those schools, classrooms and States with the largest 
number of poor and undeserved children.
    These challenges include:
    1. Support for new and inexperienced teachers who need sustained 
professional development anchored in the understanding of rigorous and 
evidenced based curricula practices.
    2. Development of a school culture where the twin goals of 
excellence and equity are not compromised.
    3. Capacity building at the State level for developing equitable 
assessments, this includes educating the public by the State about the 
appropriate use of test data.
    4. Assurance that there is an understanding of the linkage and 
interpretation of high stakes assessment on the one hand and on the 
other hand the appropriate changes that must therefore follow in the 
teaching and learning framework.

Strengthening the System of Technical Assistance

    The legislation should establish a much stronger system of TA if it 
is to carry out the mandates of the NCLBA and ensure that all children 
reach high levels of performance and achievement. Clearly defined roles 
and responsibilities should be the foundation of a strengthened system 
of technical assistance. In general, this new system should:
    <bullet> Meet increased demand with new and sustained investments.
    <bullet> Promote research to practice and the effective 
implementation of national efforts to leave no child behind.
    <bullet> Raise the quality of rigor of research and research 
applications.
    Develop an integrated agenda for research.
    <bullet> Clarify and simplify the mission of the Office of 
Education Research and Improvement.
    I believe that there are six basic ways to strengthen the technical 
assistance system that will ultimately help improve the academic 
performance of all children.
    The six suggestions are:
    1. First, strengthen and expand the overall system of knowledge 
utilization that is currently supported and administered by the 
Department of Education. It is important to emphasize that our 
technical assistance program is part of a larger knowledge utilization 
system that includes research, development, dissemination, professional 
development, evaluation as well as technical assistance. I believe that 
in order to improve TA the larger system also needs to be improved.
    2. Sustain the basic technical assistance infrastructure of the 
Comprehensive Centers (CCs). The CCs will work through their client 
organizations to help targeted grantees to:
    <bullet> Gain a full understanding of the relevant new provisions 
of NCLBA, including issues related to compliance and accountability.
    <bullet> Align local and State policies with NCLBA.
    <bullet> Identify new programmatic requirements and funding 
opportunities.
    <bullet> Address specific needs of schools identified for 
improvement.
    <bullet> Identify and implement research based programs and 
practices needed for high quality implementation of specific 
provisions.
    3. Increase the number of TA centers to take into account proximity 
to the large numbers of low performing schools and needy students.
    4. Align the CCs mission with the NCLBA.
    <bullet> Address high priority needs, particularly in low-
performing schools and Title I targeted, high-poverty districts;
    <bullet> Provide TA to school districts, schools, and intermediate 
agencies whose mission is to improve low performing schools;
    <bullet> Assist SEAs with technical issues surrounding the 
implementation of NCLB and build their capacity to provide meaningful 
support to low performing schools;
    <bullet> Assist States and school districts in addressing the 
barriers to student achievement such as limited English proficiency and 
the achievement gap that exists between minority and majority students.
    5. Establish core services for the CCs TA delivery.
    <bullet> Develop and implement interventions based on scientific 
research that has been field-tested in classrooms;
    <bullet> Recommend specific research-based practices to meet the 
unique needs of a particular school or district;
    <bullet> Develop and implement research-based technical assistance 
strategies that enhance reading, math and science instruction;
    <bullet> Promote research-based strategies that improve student 
achievement that are cost effective;
    <bullet> Develop and implement technical assistance strategies that 
help translate research into classroom practice;
    <bullet> Align their services with No Child Left Behind;
    <bullet> Build local capacity.
    6. Build the New Technical Assistance System on Geographic and 
Demographic Factors. For the NCLB TA Centers to be effective in 
fulfilling the aforementioned roles and responsibilities, geographic 
and demographic factors become extremely important. Two key principles 
which must be taken in consideration when building a technical 
assistance infrastructure are (1) demographics (including but not 
limited to total number of students in a region or State, numbers of 
limited English proficient students, numbers of Title I schools in a 
State/region, free and reduced lunch numbers, schools in corrective 
action) and (2) client density.
    Clusters of States, individual States, or parts of large States 
with significant numbers of students at risk or the highest percentages 
of schools or districts in improvement or corrective action need 
concentrated and focused amounts of sustained technical assistance. For 
example, 51 percent of all Title I students served in the Nation reside 
in California, Texas, New York, Florida, Michigan, Illinois and Puerto 
Rico. Their systems are complex with the numbers of potential clients 
(administrators, teachers, parents and students). Signaling out these 
large geographic areas and creating one or more NLCB TA Centers would 
allow for grouping other States into demographically or geographically 
similar clusters in order to maximize service efficiency.
    Recognizing client density allows for proximity of service delivery 
and increased efficiency that enhances the quality and impact of 
technical assistance. Similar demographics equates to consistency in 
the quality of TA and less disparate variables and/or problems.
    Technical assistance can serve as direct links between 
practitioners and research. With all of the wonderful educational 
research that has emerged, why does it have limited success in guiding 
classroom instruction? The National Academy of Sciences has suggested 
that locally based TA entities may play pivotal roles in forming 
``learning communities''. Learning communities would be forums where 
practitioners and researchers join to inform each other's work. 
Researchers may take directives based on practitioners experience 
whereas practitioners would have the opportunity to learn more about 
research findings and their implications for transforming instruction 
or school district policies.
    For me, the most important outcome of an effective technical 
assistance system is what it will do for students. I have stressed a 
system that would be directly aligned with No Child Left Behind: cost 
effective, responsive to local needs, based on scientific research and 
focused on improving student achievement. Make no mistake about it, an 
effective technical assistance system must provide assistance to 
schools in ways that will provide all children with the opportunity to 
achieve academic success.

    Senator Frist. Miss Taylor?
    Ms. Taylor. Thank you, Senator Frist. It is certainly an 
honor to be here to testify before this distinguished committee 
regarding the reauthorization of the Office of Education 
Research and Improvement and to underscore what is said about 
the need to provide sound research upon which States can make 
good decisions about improving education.
    I testify today on behalf of the Education Leaders Council, 
which is a nonprofit, nonpartisan organization of practicing 
reformers. Its leadership includes 11 State education chiefs, 
including myself, representing over 30 percent of the Nation's 
K-12 population. Our membership includes governors, State 
boards of education, and practicing reformers throughout the 
Nation's education systems.
    First on behalf of ELC let me commend the chairman and the 
rest of the committee for the work on the No Child Left Behind 
Act of 2001. I believe it is truly a landmark education reform 
that will have a profound impact upon this Nation, ensuring 
that all children are provided the opportunity to high quality 
education.
    The No Child Left Behind Act includes many important 
provisions but I believe that one that is particularly key and 
relevant to this morning's hearing is the focus on 
scientifically based research. This term is used throughout the 
new law in a way that will require everything from technical 
assistance in failing schools to reading programs to be based 
on sound scientific evidence that shows which strategies are 
effective toward improving student academic achievement.
    In effect, what Congress has said is that Federal funds may 
no longer be used to support programs that have no compelling 
evidence of effectiveness. To those not familiar with the world 
of education, this may seem like common sense. However, I can 
attest that in my many years being involved in education at the 
ground level, what works is often defined by a variety of 
things, including good intentions, expensive marketing, and 
just good plain politics, all at the expense of a hard look at 
the evidence and ultimately at the expense of our Nation's 
children.
    This is why today's hearing on Federal education research 
is critical to ensuring the promises of the No Child Left 
Behind and that they become a reality. Specifically today's 
focus on the Federal role in education research is important 
because to date ELC believes that there is much room for 
improvement in this area. For this to occur OERI must be 
significantly reformed as a part of the current 
reauthorization. ELC believes that such reform must, at a 
minimum, focus on three pillars: integrity, quality, and 
utility of educational research.
    I am pleased to say that Chairman Castle's bill, which 
recently passed in the House, leads me to believe that we are 
already on a path toward achieving each of these goals. That 
bill needs some further fine-tuning, particularly with respect 
to its handling of statistics and assessment, but it is a very 
solid start to the needed reform.
    Let me begin with integrity. By integrity I am, of course, 
not talking about any personal honesty of those working within 
the Department of Education research. Instead I am talking 
about the soundness of the system and the infrastructure 
through which education research is produced.
    In discussing research, let me highlight evaluations done 
within the department. To the extent that such evaluations are 
conducted by the same agency administering the program being 
evaluated, it seems this is very much like the fox minding the 
henhouse. ELC believes the issue of integrity must be 
addressed. How this comes about is most certainly a combination 
of many factors, some of which, such as changing the culture of 
education research, may be hard to legislate.
    However, I believe that a great deal can be done by simply 
creating an infrastructure that is conducive to building 
integrity and staving off the appearance or the reality of 
undue political influence. At a minimum, this should include 
providing as much independence for research and evaluation as 
possible while ensuring proper checks and balances.
    ELC encourages this committee to closely examine the 
options in this area which should, as in the bill passed by the 
House, include consideration of a quasi-independent agency for 
research and evaluation while retaining the oversight of a 
Cabinet-level executive department.
    Although some changes were made in the National Assessment 
of Educational Progress as a part of its enhanced role in No 
Child Left Behind, there are additional long-standing issues 
regarding the independence and the integrity of the NAEP and 
the role of the National Assessment Governing Board that remain 
to be addressed. We believe it is important to grant additional 
independence and authority to NAGB in the operation of the 
NAEP.
    NAGB's capacity to ensure the integrity and accuracy of the 
National Assessment of Educational Progress should not hinge on 
the sufferance or goodwill of particular officials in the 
Department of Education or a new academy to be created within 
the department. Congress should entrust NAGB with full 
responsibility for NAEP rather than splitting that jurisdiction 
with the National Center of Education Statistics or the new 
academy. In our view the House bill did not adequately address 
the ambiguities regarding NAGB's authority over NAEP.
    Chairman Kennedy has often been described as the father of 
NAGB and it is our hope that this committee will take this 
opportunity to reestablish suitable constitutional arrangements 
that will ensure NAEP's independence and integrity. Given the 
new burdens that No Child Left Behind places on NAEP and the 
added importance of NAEP results, this has never been more 
urgent.
    We also urge this committee to be careful not to undermine 
the integrity and status and the autonomy of the National 
Center of Education Statistics. The House bill passed, perhaps 
unintentionally, downgrades the Federal education statistical 
enterprise by giving the NCES commissioner less independence 
than in the case today. This could cause damage by creating the 
possibility or at least the appearance of manipulation of 
important educational statistics. It will also make it harder 
to recruit able people for the key role of statistics 
commissioner.
    Now if I may speak to quality, many of us by now are 
familiar with the National Reading Panel's review of research 
on reading and the fact that such a large amount of research in 
this area was simply not scientifically sound. I would not be 
at all surprised to learn that a vast majority of this research 
was, in fact, funded in whole or in part by the Federal 
Government. Just imagine where we would be if each and every 
Federal dollar that the Federal government has spent on 
education research in the past 20 years had met the same type 
of definition of research passed by No Child Left Behind. We 
would clearly have a far better understanding of education and 
learning on all topics, ranging from the teaching of 
mathematics to relatively newer areas related to education 
technology. Unfortunately, this is not the case.
    It is simply imperative that Congress take this opportunity 
to ensure that education research is, in fact, held to the same 
high level of scrutiny as exists in other fields of inquiry and 
that a body of knowledge be created for the education issues 
facing this Nation. For too long we have heard excuses of why 
such research is not fitting for education when all along it 
has been this failure to hold education research to these 
standards that has left a vacuum of knowledge that has instead 
been filled with hunches.
    Finally, let me discuss the third pillar of reform, which 
is utility. The key question I asked myself in preparing this 
testimony was this. In all my years involved in education 
reform, what role has Federal education research and the 
research infrastructure played in my role as an education 
practitioner?
    I believe that far too large a portion of limited Federal 
research resources continues to support projects and 
organizations that are not useful for the production of high 
quality research and development, statistics, assessment, and 
program evaluations. This has been the result of unfocussed 
priorities and mandates derived from prescriptive statutory 
requirements, separate Federal priority boards and pressure to 
adhere to political and education fads. Congress must not 
micromanage the priorities of the research agency but instead, 
establish a workable process by which on-going input from 
parents, teachers, schools, researchers, policymakers and 
others form the basis of specific priorities and a strategy for 
carrying them out.
    For example, it would be wonderful if we could develop a 
knowledge base about the acquisition of math skills, a 
knowledge that was as powerful as the one we had in developing 
reading. In Tennessee we are also enormously concerned about 
how to maintain the growth of higher level reading skills and 
thoughtful literacy in middle and high schools. We are also 
concerned about how to help children who have fallen seriously 
behind in the growth of their literacy skills catch up with 
their peers. We would welcome carefully designed studies in 
this area and would be most willing to consider their results 
as we formulate our educational policies at the State level.
    We are at a critical juncture with respect to education in 
this country. The many reforms now taking place at the State 
and local levels, aided greatly by passage of No Child Left 
Behind, are largely predicated on the belief that we know what 
works. Unfortunately, we know far less of what works than we 
are willing to admit. However, the opportunity to gain a far 
better understanding of the complexity of education is upon us 
with the reauthorization of the OERI.
    The House bill contains a number of very good things on the 
research and evaluation front but did not and, in fact, has 
created some problems on the statistics and assessment front. 
We simply urge the Senate to take the good and fix the bad and 
take advantage of the opportunity to greatly increase the 
integrity, quality and utility of education research and ELC 
stands willing to assist in any way we can.
    Senator Reed. Thank you very much, Miss Taylor and Dr. 
Nettles, Dr. Miller.
    [The prepared statement of Ms. Taylor follows:]

                   Prepared Statement of Faye Taylor

    Good morning Mr. Chairman and Members of the Committee. It is a 
pleasure and honor to be here today to testify on issues surrounding 
the reauthorization of the Office of Education Research and Improvement 
(OERI).
    My name is Faye Taylor, and I serve as Commissioner of Education 
for the State of Tennessee. I have spent 29 years in education. Before 
being appointed Commissioner by Governor Sundquist, I served as a 
classroom teacher, a reading resource teacher, a Title I teacher, a 
principal and a supervisor.
    I am testifying today on behalf of the Education Leaders Council 
(ELC). ELC is a nonprofit, nonpartisan organization of practicing 
reformers. Its leadership includes eleven State education chiefs, 
including myself, representing over 30 percent of the Nation's K-12 
population as well as governors, State boards of education and 
practicing reformers throughout the Nation's education systems. My ELC 
colleague, Florida Secretary of Education Jim Horne, has also provided 
similar testimony in the U.S. House of Representatives on these 
important issues.
    First, on behalf of ELC let me commend you, Mr. Chairman, and the 
rest of the committee, for your work on the ``No Child Left Behind 
(NCLB) Act of 2001,'' which I believe is truly a landmark education 
reform that will have a profound impact in this Nation toward ensuring 
all children are provided the opportunity for a high-quality education.
    The ``No Child Left Behind Act'' includes many important 
provisions, but I believe one that is particularly key and relevant to 
this morning's hearing is the focus on ``scientifically based 
research.'' This term is used throughout the new law in a way which 
will require everything from technical assistance for failing schools 
to reading programs to be based upon sound scientific evidence that 
shows such strategies are effective toward improving student academic 
achievement.
    Although often overlooked in many of the summaries and press 
accounts of ``No Child Left Behind,'' I believe this focus on 
scientifically-based research may in fact be among the provisions in 
the new law which has the most lasting and positive impact toward 
education reform in this Nation. And there is no place where this 
principle needs to be applied with greater diligence than in the work 
of the Federal Government's own education research endeavors.
    In effect, what Congress has said is that Federal funds may no 
longer be used to support programs that have no compelling evidence of 
effectiveness. To those not familiar with the world of education, this 
may seem like common sense. However, I can attest that in my many years 
of being involved with education at the ground level,``what works'' is 
often defined by a variety of things including good intentions, 
expensive marketing--and of course, a whole lot of politics--all at the 
expense of a hard look at the evidence and ultimately at the expense of 
our nations' students.
    ``No Child Left Behind'' will force schools, districts, and States 
to focus far more on evidence and to demonstrate that funds are being 
used for programs that scientific inquiry has shown to have positive 
results.
    This is why today's hearing on Federal-education research is 
critical to ensuring the promises of the NCLB become a reality.
    Specifically, today's focus on the Federal role in education 
research is important because to date, ELC believes that there is much 
room for improvement in this area.
    Simply put, I believe there is a broad consensus among those at the 
State and local levels that much of the research funded and 
disseminated by the Federal Government, has not to date, met the same 
stringent criteria that will now be applied to schools, districts and 
the States.
    For this to occur, OERI must be significantly reformed as part of 
the current reauthorization. ELC believes that such reform must, at a 
minimum, focus upon three pillars: Integrity, quality, and utility of 
educational research.
    I am pleased to say that Chairman Castle's bill, which recently 
passed in the House, leads me to believe that we are already on a path 
toward achieving each of these goals. That bill needs some further fine 
tuning, particularly with respect to its handling of statistics and 
assessment, but it is a very solid start on the needed reforms.
    Let me begin with integrity.--By integrity, I am of course not 
talking about the personal honesty of those working within the 
department on education research. Instead, I am talking about the 
soundness of the system and the infrastructure through which education 
research is produced.
    I understand that over the course of the past few years, including 
in testimony to the House Subcommittee charged with this legislation, 
it has been widely asserted that far too much of the research overseen 
by OERI has suffered from a lack of credibility. As an education 
reformer from the State level, I don't pretend to be an expert on why 
this has historically been the case. However, I would agree there is 
clearly the perception out in the field that too often, this research--
and more specifically, the topics, the timing, and the findings--is 
driven more by politics than sound-scientific inquiry. I think it needs 
to be admitted that the ``canons of science'' haven't always worked 
well even when applied to education research, which is why we find so 
many `peer reviewed' reports and studies that turn out to be just 
ideological soap boxes.
    In discussing research, let me highlight evaluations done within 
the Department. To the extent that such evaluations are conducted by 
the same agency administering the program being evaluated, it seems 
this is very much the case of the fox minding the hen house.
    ELC believes the issue of integrity must be addressed.
    How this comes about is most certainly a combination of many 
factors--some of which, such as changing the culture of education 
research may be hard to legislate. However, I believe that a great deal 
can be done by simply creating an infrastructure that is conducive to 
building integrity and staving off the appearance (or realities) of 
undue political influence.
    At a minimum, this should include providing as much independence 
for research and evaluations as possible while ensuring proper checks 
and balances. This may be easier said than done, as there is a fine 
line between autonomy and a lack of accountability. ELC encourages this 
committee to closely examine the options in this area, which should--as 
in the bill passed by the House--include consideration of a quasi-
independent agency for research and evaluation while retaining the 
oversight of a Cabinet level executive department.
    Although some changes were made to the National Assessment of 
Educational Progress (NAEP) as part of its enhanced role in No Child 
Left Behind, there are additional, longstanding issues regarding the 
independence and integrity of the NAEP and the role of the National 
Assessment Governing Board (NAGB) that remain to be addressed. We 
believe it is important to grant additional independence and authority 
to NAGB in the operation of the NAEP. NAGB's capacity to ensure the 
integrity and accuracy of NAEP should not hinge on the sufferance or 
goodwill of particular officials in the Education Department or a new 
``Academy'' to be created within that Department. Congress should 
entrust NAGB with full responsibility for NAEP rather than splitting 
that jurisdiction with the National Center for Education Statistics 
(NCES) or the new Academy. In our view, the House bill did not 
adequately address the ambiguities regarding NAGB's authority over 
NAEP. Chairman Kennedy has often been described as the father of NAGB 
and it is our hope that you and your committee will take this 
opportunity to reestablish suitable constitutional arrangements that 
will ensure NAEP's independence and integrity. Given the new burdens 
that NCLB places on NAEP and the added importance of NAEP results, this 
has never been more urgent.
    We also urge this committee to be careful not to undermine the 
integrity and status and autonomy of the National Center for Education 
Statistics (NCES). The House passed bill, perhaps unintentionally, 
downgrades the Federal education statistical enterprise by giving the 
NCES Commissioner less independence than is the case today. This could 
cause damage by creating the possibility, or at least the appearance, 
of manipulation of important education statistics. It will also make it 
harder to recruit able people for the key role of statistics 
commissioner.
    The second pillar of reform is quality.--Many of us by now are 
familiar with the National Reading Panel's review of research on 
reading and the fact that such a large amount of research in this area 
was simply not scientifically sound. I would not be at all surprised to 
learn that a vast majority of this research was in fact funded in whole 
or in part by the Federal Government.
    Just imagine where we would be if each and every Federal dollar 
that the Federal Government spent on education research for the past 20 
years had met the same type of definition of research passed as part of 
NCLB. We would clearly have a far better understanding of education and 
learning on all topics ranging from the teaching of mathematics to 
relatively newer areas related to education technology. Unfortunately, 
this is not the case. At the dawn of passage of the NCLB Act, many of 
us at the State and local level are waking up to realize that the 
requirement that our programs use scientific research was based upon 
the premise that such research has existed all along--a premise that is 
simply not true.
    Albeit late in coming, it is simply imperative that Congress take 
this opportunity to ensure that education research is in fact held to 
the same level of scrutiny as exists in other fields of inquiry and 
that a body of knowledge be created for the education issues facing 
this Nation. For too long, we have heard excuses of why such research 
is not fitting for education, when all along, it has been this failure 
to hold education research to these standards that has left a vacuum of 
knowledge that has instead been filled with hunches.
    Finally, let me discuss the third pillar of reform, which is 
utility.--The key question I asked myself in preparing this testimony 
was this: In all my years involved in education reform, what role has 
Federal-education research and the research infrastructure (including 
the Federal education labs, research centers and comprehensive centers) 
played in my role as an education practitioner?
    I believe that far too large a portion of limited Federal research 
resources continues to support projects and organizations that are not 
useful for the production of high quality R&D (Research and 
Development), statistics, assessments and program evaluations. This has 
been the result of unfocused priorities and mandates derived from 
prescriptive statutory requirements, separate Federal priority boards, 
and pressure to adhere to political and education fads.
    Congress must not micromanage the priorities of the research agency 
but instead establish a workable process by which ongoing input from 
parents, teachers, schools, researchers, policy-makers and others, form 
the basis for specific priorities and a strategy for carrying them out. 
For example, it would be wonderful if we could develop a knowledge base 
about the acquisition of math skills and knowledge that was as powerful 
as the one we have developed for reading. In Tennessee, we are also 
enormously concerned about how to maintain the growth of higher level 
reading skills and ``thoughtful literacy'' in middle and high school. 
We are also concerned about how to help children who have fallen 
seriously behind in the growth of their literacy skill catch up to 
their peers. We would welcome carefully designed studies in this area, 
and would be most willing to consider their results as we formulate 
educational policy in our State.
    In determining research priorities and implementing them on a 
timely basis, the agency should not be hampered by a cumbersome 
statutorily mandated structure or by earmarks and set asides for 
specific categories of grantees and contractors (including the research 
institutes, labs and centers). These are major obstacles to the 
agency's efficiency and effectiveness. Instead, OERI or its successor 
should be provided proper latitude in determining the best nationwide 
structure to carry out its mission and disseminate its work.
    Such a structure is imperative if Federal research is to be useful 
to those who are supposed to be the end users of this valuable 
information. As you consider and evaluate specific proposals for 
reforming and refocusing OERI, we suggest that you address the 
following important issues:
    (1) The structure should adequately insulate key decisions about 
Federal education R&D (and statistics and assessment) from politicians 
and from other interest groups.
    (2) The statistics and assessment operation should be given the 
political autonomy and professional integrity needed for its data to be 
trustworthy--while also making that operation accountable for the 
speed, accuracy and utility of its data.

Conclusion

    We are at a critical juncture with respect to education in this 
country. The many reforms now taking place at the State and local 
levels--aided greatly by passage of the No Child Left Behind--are 
largely predicated on the belief that we know what works.
    Unfortunately, we know far less of what works than we all admit. 
However, the opportunity to gain a far better understanding of the 
complexity of education is upon us with the reauthorization of OERI. 
The House bill contains a number of very good things on the research 
and evaluation front but did not solve, and in fact has created, some 
problems on the statistics and assessment front. We simply urge the 
Senate to keep the good and fix the bad and take advantage of this 
opportunity to greatly increase the integrity, quality and utility of 
education research in this Nation.
    ELC stands ready to assist you in this endeavor.

    Senator Reed. My colleague, Senator Frist, was called away. 
I have to go to the floor to debate national missile defense so 
I will ask that you be prepared to respond to any questions 
that may be submitted in writing to you to follow up on your 
excellent testimony. The record will remain open so that your 
responses will become part of the record.
    Again thank you for your insightful and thoughtful 
testimony today. I appreciate it very much.
    At this point let me declare the hearing adjourned. Thank 
you.

                          ADDITIONAL MATERIAL

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [Whereupon, at 11:28 a.m., the hearing was adjourned.]

                                    

</pre></body></html>
